<html>
<title> - MAP-21 REAUTHORIZATION: STATE AND LOCAL PERSPECTIVES ON TRANSPORTATION PRIORITIES AND FUNDING</title>
<body><pre>[Senate Hearing 113-757]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-757

                MAP	21 REAUTHORIZATION: STATE AND LOCAL
         PERSPECTIVES ON TRANSPORTATION PRIORITIES AND FUNDING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://www.gpo.gov/fdsys

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-798 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          















                          
                          
                          
                          
                          __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 27, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     2
Sanders. Hon. Bernard, U.S. Senator from the State of Vermont....     4
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     5
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................     5
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey..     6
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     8
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    10
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    12
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    13
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........    14
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    30

                               WITNESSES

Lewis, Hon. Michael P., Director, Rhode Island Department of 
  Transportation.................................................    15
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Boxer............................................24, 28
        Senator Wicker...........................................    26
Minter, Sue, Deputy Secretary, Vermont Agency of Transportation..    31
    Prepared statement...........................................    33
    Responses to additional questions from:
        Senator Boxer............................................    38
        Senator Wicker...........................................    40
Ballard, Hon. Gregory A., Mayor, City of Indianapolis, Indiana...    42
    Prepared statement...........................................    44
    Responses to additional questions from:
        Senator Boxer............................................    59
        Senator Wicker...........................................    61
Cornett, Hon. Mick, Mayor, Oklahoma City, Oklahoma...............    63
    Prepared statement...........................................    66
    Responses to additional questions from:
        Senator Boxer............................................    70
        Senator Wicker...........................................    71
Fontenot, Bill, President, St. Landry Parish, Louisiana..........    73
    Prepared statement...........................................    75
Willox, Jim, Chairman, Converse County Commission, Wyoming.......    78
    Prepared statement...........................................    80
    Responses to additional questions from:
        Senator Boxer............................................    84
        Senator Wicker...........................................    85
Gula, Dave, Principal Planner, Wilmington Area Planning Council..    86
    Prepared statement...........................................    89
    Responses to additional questions from:
        Senator Boxer............................................    91
        Senator Wicker...........................................    92

                          ADDITIONAL MATERIAL

Testimony of Stephanie A. Miner, Mayor of Syracuse, New York.....   111

 
MAP-21 REAUTHORIZATION: STATE AND LOCAL PERSPECTIVES ON TRANSPORTATION 
                         PRIORITIES AND FUNDING

                              ----------                              


                        THURSDAY, MARCH 27, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Vitter, Carper, Cardin, Sanders, 
Gillibrand, Booker, Inhofe, Barrasso, Sessions, Crapo, Markey, 
Wicker, and Fischer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. We will come to order. Today's 
hearing will provide the EPW committee the opportunity to hear 
from State and local officials and transportation stakeholders 
about the importance of Federal transportation funding and 
their priorities for the reauthorization of MAP-21.
    Today's panel truly represents a great cross-section of the 
country. As transportation leaders at the State and local 
level, they know what is at stake without sustainable funding 
and a sound Highway Trust Fund. I was a former county 
supervisor in another lifetime, and I know how tough that job 
is and how important maintaining safe and efficient 
transportation systems are to local communities. When something 
goes wrong, people show up at your door. And I know that from 
personal experience.
    According to the U.S. Department of Transportation's 
recently released 2013 conditions and performance report, about 
49 percent of highway miles traveled are on roads that are in 
less than good condition and 18 percent are on roads in less 
than acceptable condition. In addition, over 21 percent of the 
Nation's bridges are structurally deficient or functionally 
obsolete. Of these, over 70,000 bridges are structurally 
deficient.
    These stats show that there is a lot of work to be done to 
maintain our global competitiveness. We must continue to invest 
in our transportation infrastructure, not just for now, but for 
future generations.
    However, in order to make needed investments in our 
infrastructure, Congress must ensure the long-term solvency of 
the Highway Trust Fund. Make no mistake, I think we all know we 
are running out of time.
    Last month this committee held a hearing on what the 
devastating impacts would be of letting the trust fund run out 
of funding. Here are the sobering facts. CBO and USDOT estimate 
that the Highway Trust Fund could run out of funds as early as 
September 2014, which would create cash-flow problems for 
States during the critical summer construction season. Already, 
States are cutting back on the construction projects they had 
planned to go forward with this spring, and this trend will 
only continue to get worse as we get closer to insolvency.
    MAP-21 was a bipartisan bill that included transformational 
reforms to improve flexibility, reduce costs and require 
accountability for our surface transportation programs. These 
reforms, many of which are still in the rulemaking process, 
will enhance Federal transportation programs and help to build 
public trust in seeing how our tax dollars are spent. We will 
continue to track the implementation of these reforms as the 
DOT makes them, and we welcome the opportunity to hear from 
States, counties, parishes, cities on how these reforms are 
working and what tweaks and improvements should be considered 
for our next bill.
    My goal, and I know that Senator Vitter shares this goal, 
is to move swiftly this spring to pass a long-term 
reauthorization bill in the EPW Committee that provides, we 
hope, 6 years of funding certainty. I have begun discussions 
with Chairman Wyden and Ranking Member Hatch on funding this 
bill and addressing the shortfall in the Highway Trust Fund. 
This committee has the responsibility to reauthorize MAP-21. 
The Finance Committee has the responsibility to fund it. We are 
not going to let them just hang out there by themselves, we are 
going to work with them, and we are going to work closely with 
them and other Senate committees of jurisdiction, such as 
Commerce and Banking, to pass the legislation with the same 
bipartisan support we experienced with MAP-21.
    So we are going to mark this bill up at the end of April. 
We must move it forward. I know that members on this committee, 
on both sides, including Senator Carper and Senator Barrasso, 
working with Senator Vitter and I, we are all committed to 
this. I hope what you will do today is speak from the heart 
about what it means to you, if in fact is it as important to 
you as I think it is, I hope you will tell us it is important. 
If you don't think it is important, if you think that the 
Federal Government could walk away from this, tell us that. We 
need to know from you.
    So this is a very important day for me, because again, I 
have so much respect for the folks on the ground who implement 
what we do here. With that, I will turn to my ranking member, 
Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, for holding today's 
hearing. This is really important to get the local and State 
perspective on our transportation infrastructure. That is 
critical for us to gain understanding and do our work properly. 
And thanks to all of our witnesses today who traveled a long 
way to be here. You have shown how important surface 
transportation infrastructure is to all of your communities. 
Collectively, you bring a diverse set of perspectives, but a 
common goal of developing a first-class, comprehensive 
transportation network. I really look forward to hearing your 
views.
    I especially want to thank Bill Fontenot for making the 
trip from Louisiana. Mr. Fontenot brings two unique and very 
relevant perspectives. Right now, he is president of St. Landry 
Parish. Parish is our work for county in Louisiana. And I was 
very impressed when the Chair used the word parish in listing 
local jurisdictions. I think we are making leaps and bounds of 
advancement in this committee.
    [Laughter.]
    Senator Vitter. And I want to assure everyone, we are not 
sending transportation money to local Catholic churches. I 
would probably be in favor of that, but that is not what we are 
talking about.
    [Laughter.]
    Senator Vitter. We are talking about counties in Louisiana 
called parishes.
    But prior to being elected parish president in 2011, Mr. 
Fontenot worked as an engineer at the Louisiana Department of 
Transportation and Development for 38 years in the Highway 
Department, 18 of which he served as one of nine regional 
district administrators.
    Our surface transportation infrastructure consists of a lot 
of different categories or types of roads. But together they 
create a network. In order to have a healthy and efficient 
network, all of those pieces need to remain strong. This means 
first investing in the critical rural roads and bridges that we 
rely on to get so many of our kids to school and to go to work, 
particularly in ag and energy markets. This means investing in 
the interstate system to improve lanes of commerce between 
States. And it means investing in the vital corridors that link 
the two. Such a network is a fundamental component of our 
Nation's economy and essential to our quality of life.
    However, we can't work toward that cohesive network if we 
don't have a reliable Highway Trust Fund and prioritize proper 
investment in streamlined, flexible programs. Recent actions 
represent a departure from the intent of the Highway Trust Fund 
and of prolonged economic uncertainty, not only in the direct 
investment of our infrastructure but also the type of long-term 
investment that drives economic development at home and makes 
us more competitive abroad.
    If we are going to be successful at putting such a 
structure back on a sustainable course, of course we need to 
fix the financing piece. But to fix the financing piece, I 
think it is crucial that we also get the policy right and 
restore trust back in the highway trust fund. That means the 
trust fund needs to be sustainable and transparent. We need to 
be able to show where taxpayer dollars are going, where future 
investment will go. We must continue to reduce costs and 
burdens and red tape that is unnecessary.
    Flexible and accessible apportionment programs will also 
work to restore trust in the trust fund. While other investment 
tools can play an important role, only such an apportionment 
program has the ability to improve our infrastructure across 
the board, provide a steady revenue stream to mitigate 
uncertainty, provide a base for innovative financing 
structures, empower local and State decisionmaking, and keep 
the Federal Government out of the business of picking winners 
and losers.
    So we must resist the urge to move back toward small, rigid 
programs that are silos that don't offer that flexibility 
toward a comprehensive vision that offers flexibility and real 
local and State empowerment to meet our needs.
    Again, I want to thank the Chair and the witnesses for all 
of their hard work. I am genuinely looking forward to your 
ideas and perspectives.
    Senator Boxer. Thank you, Senator.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you very much, Madam Chair.
    This is an enormously important hearing. Because it is 
vitally important that we hear from folk around the country who 
are struggling with one of the great challenges that we have, 
and that is a crumbling infrastructure.
    I am especially delighted, Madam Chair, that you invited 
Sue Minter, the Deputy Secretary of the Vermont Agency of 
Transportation, to be here with us. Sue played an especially 
important role when the State of Vermont was hit by tropical 
storm Irene. Many of our towns were devastated. She was the 
recovery officer as we attempted to rebuild those towns, and 
she did a great job doing that.
    I think the bottom line here is, and I don't know that 
there is much agreement or appeal among our representatives who 
come from all over the country, and we are very appreciative 
that you are here, that as a Nation we are all aware that 
something is very fundamentally wrong. That in Vermont, and I 
suspect in our States as well, your bridges are crumbling, your 
roads are in need of repair. In many parts of this country, 
unemployment is much too high. And we are sitting here in a 
situation where the rest of the world is spending significantly 
more money on rebuilding their infrastructure than we are.
    I will tell the story, Madam Chair, somebody who worked for 
me went to China a couple of years ago. And they left China 
from a brand new airport. When they were in China, they were 
traveling on high speed rail. They came back to the United 
States, they flew into an overcrowded, inadequate airport. And 
he asked himself which was the developing country, which was 
the first world country, which was a third world country. I 
think we see that more and more.
    So the bottom line to me is that we lose efficiency, we 
lose productivity. God knows how much money is being spent by 
individuals whose cars go over potholes and axles break and so 
forth and so on. People waiting in traffic jams rather than 
getting to work.
    So we have a crisis. We have waited too long to address it. 
I was mayor of the largest city in Vermont for 8 years, and I 
can tell you that it takes money to rebuild the infrastructure. 
Maybe somebody can do it without money, and that would be a 
great idea, we would love to hear that suggestion. My 
understanding, it is a pretty expensive proposition. But we 
have to invest in that infrastructure. We have to figure out a 
way to fund it in a fair and progressive way. I look forward 
with you, Madam Chair, to do just that.
    So thank you very much.
    Senator Boxer. Thank you. Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Madam Chair. And thanks to the 
ranking member as well. I appreciate you folk coming from your 
various States to help us and provide us with information on 
the many needs that we face all across this country.
    As our committee works to reauthorize the highway bill, I 
have been especially focused on the needs of Nebraska's 
Department of Roads and that of our cities and counties. These 
are the folks who are actually putting our Federal dollars to 
work back home. The overwhelming message that I have heard from 
these important stakeholders is that the Federal process 
required for building roads is overly burdensome, and it needs 
to be more flexible.
    We have worked hard in Nebraska to prioritize spending for 
our infrastructure needs. As we have started to put this 
funding to use, we have further seen the need to provide our 
State and our local governments with as much assistance and 
autonomy as possible. States will have greater ability to 
experiment and address transportation problems with innovative 
solutions if they are allowed greater flexibility in the use of 
those Federal dollars.
    Transportation infrastructure is an expensive venture on 
its own without the Federal Government adding to the cost. If 
we cannot give our local and State governments an adequate 
level of funding, we should at the very least get out of their 
way so that projects can be completed in an efficient and a 
cost-effective manner. We need to work together to pursue a 
path forward that continues to ensure the use of Federal 
dollars are devoted to tasks that truly add value to the 
projects and are not wasted on piling up paperwork.
    I hope this highway bill will include the needed policy 
reforms to streamline environmental processes and accelerate 
project delivery. Today's hearing is an important step in 
understanding flexibility needed for local and State 
governments. And I look forward to working with this committee 
in achieving those needed solutions.
    Thank you, Madam Chair.
    Senator Boxer. Thanks so much, Senator.
    We now go to Senator Markey.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Madam Chair.
    The United States has long been the world's leader in 
ingenuity and engineering, building America's infrastructure 
into the best in the world. But age has caught up with us. Many 
of our roads, our bridges, transit and rail are in great need 
of repair and replacement. And the impacts of extreme weather 
and climate change put aging infrastructure at further risk.
    More than half of Massachusetts' 5,000 bridges are 
structurally deficient or functionally obsolete. This is an 
urgent problem that we must address in the next transportation 
bill. The surface transportation bill we passed in 2012, MAP-
21, included $1.2 billion in Federal highway funds for 
Massachusetts to modernize our highways and bridges. Under the 
law, the Commonwealth will also receive almost $700 million in 
transit funding. And that is a good start, but it is not enough 
to deal with the magnitude of the problem. A strong, multi-year 
bill would provide the funding and the certainty that our State 
and local governments need to get our roads and our transit 
systems back in excellent condition.
    Our priorities beyond traditional road repair and 
improvement funds in Massachusetts include one, improve our 
aging stock of bridges and build upon the success of the 
accelerated bridge program in Massachusetts that recently fixed 
over 100 bridges on time and on budget. Two, invest in transit 
and promote key projects including the Green Line extension. 
Three, provide funding for Streetscape and other important 
parts of the transportation alternatives program that helps 
revitalize downtowns and attract business to city centers. And 
four, encourage commuter rail by building on the recent success 
of increasing the number of trains serving Worcester, and 
finally, making the South Coast rail project a reality to bring 
passenger rail transportation to the south shore.
    Making investments in our infrastructure is essential to 
our economy. It puts construction workers on the clock in good-
paying jobs. It creates the infrastructure necessary to 
efficiently move goods and people around our ever changing and 
expanding economy. I know that when we rebuild our 
infrastructure we rebuild our economy. So as we quickly 
approach MAP-21's expiration this fall, we must always keep in 
mind that the most effective way we can create jobs and improve 
our infrastructure is to pass a robust, long-term surface 
transportation bill.
    Thank you, Madam Chair.
    Senator Boxer. Senator, thank you.
    Senator Booker, followed by Senator Cardin, unless we have 
a Republican in between. Senator Booker.

           OPENING STATEMENT OF HON. CORY A. BOOKER, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. Thank you so much, Chairman Boxer and 
Ranking Member Vitter. I do know what a parish is, sir, because 
my granddaddy is from Louisiana.
    [Laughter.]
    Senator Booker. I am very happy to be here now to talk to 
all the folks here and hear your very important testimony on 
what is a critically urgent issue in the United States of 
America. Our infrastructure is simply crumbling all around the 
country.
    As New Jersey is the most densely populated State in the 
country, New Jersey has also among the most heavily trafficked 
roads and extensive public transportation systems. We are a 
critical transportation superstructure in New Jersey.
    Unfortunately, New Jersey is home to 624 structurally 
deficient bridges as of 2013, meaning that the bridges are in 
deteriorated condition and urgently need to be repaired. It is 
unacceptable and the threat to safety of New Jersey families is 
unacceptable.
    Across the United States, a staggering 65,000 bridges are 
classified as structurally deficient, that is 65,000 bridges in 
our country that are structurally deficient, posing safety 
threats to our communities across the country. Another 1,700 
New Jersey bridges do not meet current standards with regard to 
lane size, sufficient shoulder lanes, and are described by the 
Department of Transportation as functionally obsolete. An 
astounding 66 percent of New Jersey's major roads are in poor 
or mediocre condition.
    This costs New Jerseyans over $3 billion a year in extra 
vehicle repairs and operating costs, meaning that New Jerseyans 
pay out of pocket because of all these deficiencies about an 
extra $601 per motorist. And New Jersey is not alone. States 
all across our country are struggling with similar 
transportation infrastructure issues. This enormous challenge 
demands that we as a Nation invest more in our transportation 
infrastructure. It is a multiplier in terms of the opportunity 
it creates for our country. Not only will a major investment 
improve safety and help businesses, but it will also create 
jobs and strengthen our entire economy.
    According to a report by Facing our Future, a group of 
former New Jersey government executives, New Jersey needs at 
minimum $21.3 billion to invest in short-term transportation 
infrastructure needs through 2018. The American Society of 
Civil Engineers estimates that to fix our bridges the United 
States alone needs an additional $8 billion annually to keep us 
at the cutting edge, where we need to be to protect safety and 
security and promote business growth.
    While these investments secure roads and bridges, every 
dollar is vital because of also that multiplier effect of job 
creation. As we improve our infrastructure, businesses can move 
goods quicker and cheaper. Businesses can export more and reach 
more customers overseas. This is a critical economic 
competitiveness issue. And all of this also attracts investment 
further into our country. Investment in infrastructure creates 
investment in America.
    In a rapidly changing and urbanizing 21st century America, 
we must prioritize innovative, cost effective, sustainable 
transportation options. MAP-21 provided funding, not just for 
transportation projects, but also, it is important to note, for 
certain projects that reduce transportation-related air 
pollution. This to me is critical. In my home city of Newark, 
where I was mayor, we have seen congestion and heavy air 
pollution negatively impact vulnerable communities. For 
instance, the port of Newark, one of our country's most busy 
ports, provides a major national economic benefit. But the 
communities surrounding the area are disproportionately 
impacted by the air pollution caused by the concentration of 
heavy truck traffic, cargo vessels and cargo handling 
equipment. High asthma rates and other health problems afflict 
the surrounding communities.
    The Congestion Mitigation and Air Quality program provides 
States with the funding to address this problem but it does not 
go far enough. We need to invest substantially more resources 
in retrofitting trucks and locomotives, investing in the new 
use of newer, more environmentally friendly vehicles and 
relying more on the movement of freight by rail and making 
those rail investments. From the safety of our motorists to the 
air that our children breathe to the strength of our economy, 
transportation has a strong impact on the lives of all 
Americans. It is essential for our country to continue to be a 
global leader.
    It is absolutely critical that Congress pass a 
comprehensive transportation bill, and I look forward to 
working with all my colleagues on this committee and look 
forward to the testimony here, especially because the closest 
we get to Jersey, sir, is Delaware, which is about a third New 
Jersey residents anyway. So it is good to have you, here.
    Senator Boxer. Thank you, Senator. We will turn to Senator 
Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you very much for having 
this hearing. And to Senator Boxer and Senator Vitter, thank 
you for the manner in which you conduct this committee on the 
infrastructure advancements. MAP-21 was passed because of your 
extraordinary leadership, not only getting it through the 
United States Senate, but negotiating with the House that we 
could maintain the integrity of the legislation. So we are very 
proud of our leadership of this committee.
    I particularly want to thank you for today's panel, because 
I look forward to the record being established by our local 
officials as to the importance of local input in determining 
priorities for transportation in our Nation. To me this is 
extremely important.
    I take great pride in the transportation alternative 
program which is included in MAP-21. Working with Senator 
Cochran, we were able to get that program integrity maintained. 
Now, Madam Chair, I want to tell you, it is a little over 1 
percent of the total funds. It took a lot more than 1 percent 
of the total debate on that bill. I appreciate your commitment 
to that issue, and I hope that we will not rehash some of the 
arguments in the past, but look forward to how we can build 
upon that program to make it even more effective as we move 
forward.
    Of course, it comes from the transportation enhancement, 
and the previous generations of our surface transportation. But 
I think the transportation alternative program is working well. 
And I thank you very much for our help.
    Mayor Ballard, I particularly appreciate your being here 
from Indianapolis. It is not in Maryland, although we still 
haven't quite forgiven you on the Baltimore Colts, but we are 
working on that. I very much appreciate your use of the 
transportation alternative program to really get livable space 
in Indianapolis. The way that you have used that to help deal 
with the historic trail, the greenway space, to me this is 
exactly what we intended when this legislation was passed, and 
I thank you for being here to tell your story and tell the 
story of cities all over this country, whether they are small 
cities or large cities.
    And Mayor Cornett in Oklahoma City, you used this money for 
transit and for other alternatives. It is good to see that the 
local input is being done in the way we anticipated it being 
done. This is a partnership between the Federal and State 
government.
    And these transportation alternative programs, to me, are 
critically important. In my city of Baltimore, I was able to 
get Federal funds, through the Surface Transportation 
Reauthorization to complete the Gwynns Falls Trail. Now, for 
those who are familiar with Baltimore, Baltimore was designed 
by Olmstead. He designed Baltimore to be communities connected 
by greenspace, by greenways. But as we became more and more 
urban, as time went forward, that greenspace was built over. 
The Gwynns Falls watershed was one of those trails that had 
been built over. We have reclaimed the Gwynns Falls and now 30 
communities are connected where people can bike and walk and 
get to know each other.
    These are communities that were in many cases trapped 
because of the economics of the circumstances. Now, people are 
being liberated. And yes, they do use bikes, they do walk, it 
is healthier, it is helping our environment. It is what we 
intended to do with the comprehensive transportation bill. It 
is working.
    So Madam Chair, I very much appreciate this hearing, 
because I think it will complete a record as to why we need to 
have a balanced surface transportation program. I strongly 
support the improvements to our bridges, our roads, our transit 
systems. They are all critically important to America's 
economy. But our cities are equally important. And giving them 
the ability to determine their local priorities is what this 
partnership should be all about. I am very proud that we were 
able to accomplish that on MAP-21, and I look forward to 
continuing that commitment as we reauthorize the program.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Good morning Madam Chairman, Ranking Member Vitter, members 
of the committee and our panel of witnesses. Thank you for 
holding today's hearing to give the committee the opportunity 
to hear local perspectives on how well our Federal surface 
transportation programs are working for them.
    It's only been a couple years since MAP-21 was enacted. 
Much of the policy reforms put in place by MAP-21 have yet to 
be fully realized and, while still others are being 
implemented.
    One program that I am very proud to hear that is working 
well for many communities across the country are the reforms we 
made in the Transportation Alternatives Program--formally known 
as Transportation Enhancements.
    I am very much looking forward to hearing from Mayor Greg 
Ballard. His efforts to reinvigorate Indianapolis through 
investments in Greenways, the development of the Indianapolis 
Cultural Trail and other alternative modes of transportation 
are transforming Indianapolis. He has a great understanding of 
what businesses of tomorrow's economy, as well as the young 
high skilled workforce that power these new companies, are 
looking for in the towns they cities they are locating to.
    Transportation design that is multi-modal and is focused on 
community livability is essential to ensuring the global 
competitiveness of American business. Exciting things that are 
happening around Indianapolis and across this country with 
locally focused transportation alternatives projects in the 
city are improving the livability and the economy.
    I also understand that Oklahoma City Mayor Mick Cornett has 
made investments in transit and transportation alternatives 
priorities for improving transportation in his city as well.
    In 2011 when this committee began in earnest its work on 
MAP-21, one of the greatest debates in the bill was over a 
program that consisted of roughly 1.5 percent of the total 
funds of our Federal surface transportation program.
    I, along with many of my colleagues on this committee, and 
with tremendous leadership from my friend Senator Cochran of 
Mississippi, we stuck up for this little program. Our 
familiarity with the TE program, now called Transportation 
Alternative Program or TAP, came from hearing success stories 
about specific TAP projects in communities around our States.
    The Program is very personal for me and it goes back to my 
House days. Through the TE program I was able to help build 
Gwynns Falls Trail in Baltimore. Gwynns Falls is a 15-mile 
trail that runs from the inner suburbs of southwest Baltimore 
to heart of downtown Baltimore right passed Camden Yards and 
Ravens stadium and the inner harbor.
    The trail is a continuous recreational corridor and viable 
commuter route connecting more than 30 neighborhoods with 
parklands, unique urban environmental features, cultural 
resources and historic landmarks.
    The trail has fostered a greater sense of community pride 
among the neighborhoods connecting to the trail. I have 
received thanks from local businesses big and small for the 
development of this trail because it has had positive impact on 
economic growth in the city.
    Getting more people walking and biking provides the 
benefits of reduced traffic congestion, improved air quality, 
and contributes to a healthier lifestyle.
    My experience in helping build the Gwynns Falls Trail is 
something that I imagine Mayor Ballard can relate to having 
built the Indianapolis Cultural Trail in his city.
    Gwynns Falls and many other projects like it in Maryland 
are providing measurable economic, environmental, public health 
and safety benefits at the local level. It is the local 
benefits that TAP projects provide that motivated me to 
champion this program.
    A critical component of the effort that Senator Cochran and 
I led was to initiate a process, run at the State level, to 
ensure that local transportation authorities and MPOs 
(Metropolitan Planning Organizations) have guaranteed access to 
TAP funds. The anecdotal information I've been receiving from 
the NGOs tracking how TAP dollars are being spent is that 
counties and cities across the country are taking full 
advantage of this program and are able to pursue important 
local transportation projects that improve community livability 
and local economies, as well as improve the climate for small 
business growth and smart residential development.
    Most importantly, these decisions are been driven by local 
planners and local leaders who often know far better what the 
transportation needs of their community are than their State 
DOTs.
    I have some improvements that I would like to make to this 
program to ensure that it works even better for local 
communities:
     Initiate a reporting requirement on the demand and 
projects implemented through the program.
     Improve the specific suballocation dedicated to local and 
MPO decisionmakers.
     Clarify the review process for TAP projects; and
     Ensure communities can adequately plan and budget for 
future TAP projects; among others.
    Local communities around the country both big and small 
receive extraordinary public benefit from TAP projects.
    I look forward to hearing from our witnesses.

    Senator Boxer. Thank you, Senator.
    Now we are going to hear from the chairman of the 
subcommittee that deals with this issue, a new member of the 
Big Four. We are very excited that he and Senator Barrasso are 
such a strong team. We are happy to call on Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair.
    When I was elected to the U.S. Senate, 14 years ago, people 
said to me, what do you want to accomplish? I said, I would 
like to be one of the Big Four. And I come from Ohio State, 
which is one of the Big Ten.
    [Laughter.]
    Senator Boxer. Better than being one of the Final Four.
    Senator Carper. Maybe so. Maybe so.
    I am happy to see all of you. Madam Chair and Senator 
Vitter, thank you for pulling this group together. This is a 
good group and I look forward to hearing from all of you. I 
will be fairly brief.
    I was pleased to play at least a modest role in helping 
draft MAP-21, our last transportation bill. I am very excited 
to have a chance to work with Senator Boxer, Senator Vitter and 
Senator Barrasso and all of our colleagues as we try to come up 
with something, hopefully a 5- or 6-year bill paid for in some 
way. I serve on the Finance Committee, so I have a chance to 
help a little bit on that front as well.
    I am really pleased, Madam Chair, and David, to have a 
chance to hear from our State and local folks. Especially our 
local folks, and Dave Gula is here from northern Delaware. We 
care about all of Delaware. But we care about the cities and 
the towns that have a special seat at the table, and we are 
glad that you are here with us today.
    After reviewing the testimony from our panel, I am 
heartened by the stories I think we are going to hear from all 
of you, because what I see across the country is that State and 
local governments are stepping up, stepping up to the plate on 
transportation, maybe in ways that we have yet to do, but I 
think we will, we are finding ways to raise the revenues that 
you need to pay for transportation investments. Most of the 
witnesses on this panel have raised revenues at the local level 
or are from States that have raised revenues because you 
recognize that these investments pay dividends. When I was 
Governor of Delaware for those 8 years, I said more times than 
I could count, things are worth having if they are worth paying 
for. That remains the case today. And our local areas, our 
local communities, local towns and cities and counties are 
realizing that and demonstrating that.
    Both urban and rural areas, local governments often, we 
find officials making some of the most innovative investments 
in transportation infrastructure. Because when a local official 
asks the voters for more money, he or she is going to be more 
focused like a laser on developing and delivering results and 
getting positive outcomes for these investments. What that 
means is they aren't really just investing in a list of 
projects. What you're investing in is a shorter commute, you're 
investing in less congestion and you're investing in less 
pollution and investing in greater business growth. You're 
investing in an improved quality of life for communities, the 
kind of stuff that Senator Cardin was just talking about.
    Given all this, we need to make sure that local priorities 
in both cities and rural areas are taken into consideration 
when States are making decisions about their transportation 
projects. Counties, cities, NPOs need to be at the table with 
States when making those decisions about projects to help ease 
congestion, to move freight, to improve quality of life. And we 
need to do our part in Congress, right here, by passing a long-
term bill that continues to deliver on MAP-21's promise of high 
performance transportation systems.
    With that, I will stop and just look forward to your 
testimonies. Thank you.
    Senator Boxer. Thank you so much. And I am so happy Senator 
Barrasso has come here, because he and Senator Carper again are 
part of the Big Four that are writing the first draft of this 
bill, then share with everyone on the committee and shape it 
into something we hope will be a very strong consensus bill.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman. I 
agree, I am sorry for the delay. I was at our Energy Committee. 
We had a business meeting, we just finished the voting.
    But I wanted to thank you as well as Senator Vitter for 
holding this hearing. I appreciate your interest in hearing the 
Wyoming local perspective. I would like to welcome Jimmy 
Willox, a friend, who is chairman of the Converse County 
Commission. He has been a commissioner since 2007, but a friend 
of 30 years. He has a great understanding of the importance of 
transportation at the county level.
    As the chairman, Jim is responsible for balancing the 
budget for a large, rural Wyoming county, while also trying to 
meet the transportation demands of energy production in 
Converse County. Converse County is currently experiencing 
increased production in oil, gas, uranium and continues to 
produce coal. These Wyoming industries provide good-paying jobs 
that produce the energy driving our national economy. If we 
don't have the local road infrastructure to support heavy 
equipment traffic, these resources will never get to market.
    Mr. Willox will testify today about Wyoming counties where 
roads bring oil, gas and cattle to markets in America and 
around the world. These are roads that bring tourists to 
Wyoming's spectacular national forests and parks. These are 
roads that folks travel hours just to get to the next town. And 
you will hear today these key economic and tourist routes are a 
mix of paved and gravel roads.
    The ability to maintain these vital routes is essential in 
my State and to other western States. I believe we need to keep 
the highway program simple and flexible, building roads, 
bridges and highways. It often involves a series of local, 
State and Federal permits from numerous agencies. This adds 
uncertainty, increased delays and increasing costs to States 
and the taxpayer.
    Our national interstate highway system is a critical link 
to every rural community throughout the State and throughout 
the Nation. Senator Fischer and I know this well. She chaired 
the transportation committee in the Nebraska legislature, I 
chaired the transportation committee when I was a member of the 
Wyoming State Senate. We need a strong partnership between the 
Federal Highway Administration and the States and counties.
    So I want to thank Jim and all the witnesses who are here 
today for taking the time to travel here. I know Jim can 
provide the committee with a unique rural Wyoming perspective 
and as the ranking member of the Transportation and 
Infrastructure Subcommittee, I look forward to bringing the 
rural western perspective as we write the next reauthorization 
bill.
    Thank you, Madam Chairman, thank you, Senator Vitter, for 
your leadership in holding this hearing.
    Senator Boxer. Thank you, Senator. I think it is such a 
wonderful thing to have you and Senator Fischer here, because 
of your unique experience.
    We will now hear from our Senator from New York, Kirsten 
Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Madam Chairwoman, Ranking 
Member Vitter. I am so grateful that you have invited these 
witnesses here today to share the perspectives of State and 
local communities of our Nation's surface transportation 
programs. The views of local officials, those who do the real 
groundwork to implement the policies that we write, are 
critical to this process.
    Madam Chair, like you, I represent one of the most diverse 
States in the Nation. Our transportation needs are varied and 
complex. We have dense urban centers where transit funding for 
multi-modal projects, pedestrian and bicycle improvements and 
congestion relief are important. We have vast expanses of rural 
highways and bridges that must be maintained to sustain our 
agricultural industry, keep our towns connected to the State's 
economy and attract new businesses where we need new jobs. We 
have everything in between.
    Investing in our transportation infrastructure is one of 
the fastest, most effective ways to grow our economy and create 
jobs. That is why we need strong, sustainable funding for the 
Highway Trust Fund, so we can maintain and improve our 
transportation infrastructure, put people to work and get it 
done.
    In addition, we should build upon programs like TIFIA that 
allow for innovative financing for large projects of national 
and regional significance. New York has more than 17,000 
bridges and nearly 115,000 public road miles. According to the 
American Society of Civil Engineers, 12.5 percent of our 
bridges are considered structurally deficient. And 27.1 percent 
are considered functionally obsolete.
    When I hear from local officials, they tell me that they 
have to do more with less and in many instances have to make 
very difficult choices of whether they can afford to 
reconstruct a bridge or repair a stretch of highway. In New 
York, local governments own 45 percent of our State's Federal 
highway miles and 51 percent of our bridges. Like the Federal 
Government, these communities are stretched incredibly thin. 
This means that Federal assistance is all the more critical to 
ensuring the maintenance of a safe and efficient highway and 
bridge system in my State and relieve some of the pressures on 
local budgets.
    One of the major priorities for New York is to ensure that 
the Ferry Boat Formula adequately funds New York's ferry 
system. As you know, the Staten Island Ferry carries over one-
fifth of all ferry passengers nationwide, making it the largest 
passenger-only ferry system in the United States. It is a 
critical link for 60,000 passengers every single day who use 
the ferry to travel from Staten Island to Manhattan. Staten 
Island ferries are aging and will eventually need to be 
replaced. New York cannot shoulder the burden alone. Madam 
Chair, this is an issue that I would like to work with you on 
in the reauthorization bill.
    One of the biggest safety issues facing my State is the 
need to improve safety for pedestrians, particularly to protect 
our most vulnerable pedestrians, children and seniors. 
According to the data provided by the National Highway Safety 
Administration, as recently as 2011, New York State had 287 
pedestrian fatalities out of the 4,432 nationally.
    As we continue to invest in projects that will expand 
opportunities for pedestrians to walk to and from work and 
school and throughout their communities, we have to ensure that 
we also provide the necessary resources and focus to ensure our 
communities are doing all they can to improve safety.
    I hope we will have an opportunity to address these and 
other concerns as we draft the reauthorization bill. I am very 
grateful for this hearing and look forward to all your 
testimony. Thank you.
    Senator Boxer. Senator, we look forward to working with you 
and every member of this committee.
    Senator Crapo.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you, Madam Chairman and Senator 
Vitter.
    I know we are all waiting anxiously to get to this great 
panel of witnesses, so I will be very brief.
    After the expiration of SAFETEA-LU, it took 3 years and 10 
short-term extensions to get another authorization passed. That 
kind of unpredictability presents serious challenges to 
transportation projects and to our infrastructure across the 
country.
    That said, we all know the most difficult issue that we are 
facing is how to finance our transportation needs going 
forward. I hope we can get some progress today on analyzing and 
getting some creative thinking going toward understanding how 
to resolve that issue.
    MAP-21 was financed with non-traditional methods. And it is 
imperative that we find a swift and meaningful fix to the 
serious current inadequacies of the Highway Trust Fund. With 
that, I look forward to hearing from the witnesses and 
appreciate again this hearing being held. Thank you.
    Senator Boxer. Thank you.
    So we are going to go straight to our witnesses. I want to 
put two letters in the record. One is calling for a freight 
policy under the new bill. It has very diverse signatures from 
all over the country.
    The other is, I think, an unprecedented letter, Senator 
Vitter, to you and me and to Rahall and Shuster. And it is 
signed by 31 chambers of commerce. I think it is important just 
to take a minute to give you a sense of who signed it. These 
are all local chambers of commerce from Alabama, Alaska, 
Arizona, Arkansas, California, Florida, Georgia, Illinois, 
Indiana, Iowa, Kentucky, Louisiana, Maryland, Massachusetts, 
Missouri, Montana, Nebraska, New Hampshire, New Jersey, New 
Mexico, New York, North Carolina, North Dakota, Oklahoma, 
Oregon, Pennsylvania, South Carolina, Tennessee, Virginia and 
Washington State.
    [The referenced documents were not received at time of 
print.]
    Senator Boxer. I have been on this committee since I got to 
the Senate, a long, long time ago. This is unprecedented. We 
have a job to do, and it ain't about red and blue. It is about 
getting the Highway Trust Fund on solid ground for 5 or 6 
years. I know we all want to do it. And I am just really 
grateful to this panel, to my colleagues on the committee, for 
showing your interest today. So let's go first to Hon. Michael 
Lewis, Director, Rhode Island Department of Transportation.

  STATEMENT OF HON. MICHAEL P. LEWIS, DIRECTOR, RHODE ISLAND 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Lewis. Good morning, Madam Chairman, Ranking Member 
Vitter, distinguished members of the committee. I am Michael 
Lewis, Director of the Rhode Island Department of 
Transportation.
    Actually, when I look around the panel, I have some 
experience with all of your States, many of your States. I 
actually went to high school in New Jersey, Senator Booker. My 
engineering degree is from the University of Vermont, Senator 
Sanders, when you were mayor. Most of my career was spent in 
Massachusetts with Senator Markey. Senator Barrasso, John Cox 
is the current vice president of AASHTO, so rural States are 
very well represented by Secretary Cox. Senator Fischer, I 
recently spoke with my counterpart in Nebraska, Randy Peters. 
We discussed various issues. We talked about streamlining 
permitting. So these issues affect all the States across the 
country.
    I had the honor of testifying before you on this subject 
last September on behalf of the 52 State transportation 
departments as then-president of AASHTO. I know the current 
AASHTO president, Michael Hancock, Secretary of the Kentucky 
Transportation Cabinet, testified here in February. Today, 
however, I am here to speak on behalf of my State of Rhode 
Island and to provide you with more specific impacts on a small 
State with high unemployment, deteriorating infrastructure, 
further impacted by the uncertainty surrounding the enactment 
of a long-term stable surface transportation bill with adequate 
funding levels.
    My written testimony provides a detailed picture of the 
current transportation funding crisis in Rhode Island, which I 
will summarize with four brief points. One, Rhode Island's 
transportation improvement program is almost entirely dependent 
upon Federal highway funding. If Congress does not act soon to 
at least restore historic funding levels, Rhode Island, even 
with increased State investment, simply cannot fill the funding 
gap. The condition of our infrastructure, among the Nation's 
oldest and most urbanized and already in an advanced state of 
deterioration, will only get worse.
    Two, due to the uncertainty of Federal highway and transit 
funding for fiscal year 2015, Rhode Island has been forced to 
virtually halt its advertising program for all new highway 
projects using fiscal year 2014 apportionments. We have been 
forced to conserve our limited resources for existing 
commitments and emergencies only.
    Three, if Congress does not act, there will be immediate 
and direct impacts on an already distressed Rhode Island 
economy, including lost jobs and potentially permanently 
shuttered businesses. And last, the health of our State's 
infrastructure is not just a local issue. Rhode Island is a key 
corridor in the movement of people and goods in the northeast, 
as well as nationally. The deteriorated condition of our 
transportation system, therefore, places stress on not only 
Rhode Island's but the regional economy as well.
    As I stated, Rhode Island's highway improvement program is 
heavily dependent on the Federal highway funding. The total 
highway program for Rhode Island averages $240 million 
annually, with $200 million each year coming from the Highway 
Trust Fund. Beyond required matching funds, there is no State 
funded highway improvement program in Rhode Island.
    Over the last decade, in order to address critical 
infrastructure deficiencies, particularly the number of high 
cost bridge replacement projects that far exceeded our annual 
apportionments, Rhode Island was forced to leverage future 
apportionments through the use of Garvey financing and greater 
use of advanced construction, which only obligates a portion of 
the project costs in any 1 year. As a result, approximately 50 
percent of our Highway Trust Fund apportionments are committed 
to existing obligations.
    The uncertainty of whether Federal funding will be provided 
in fiscal year 2015 has required Rhode Island to delay the 
advertising of virtually all new highway projects. Only 
emergency projects and projects with funding from prior years 
are being implemented until Federal funding beyond 2014 is 
assured. This deferral of new projects has been necessary to 
ensure we are able to meet existing obligations, including the 
payment of Garvey debt service and of ongoing construction 
work. If RIDOT were to implement a regular highway program for 
2014 without the certainty of level funding for fiscal year 
2015, it would be in danger of overspending its budget by tens 
of millions of dollars, and the Rhode Island general revenues 
are simply insufficient to cover that gap.
    More than 60 percent of our State roadways are rated fair 
or worse, and nearly 20 percent of the bridges are in poor 
condition. Without additional funding, the latter will increase 
to 40 percent in less than 10 years. In short, without 
sufficient funding, Rhode Island will remain in the position of 
managing its decline of its infrastructure.
    Over the last few years, Rhode Island has enacted 
invaluable reforms to begin to address the funding needs. An 
active debate is currently underway within the State 
legislature to provide additional funds to improve the 
condition of Rhode Island's transportation system while on a 
percentage basis becoming less dependent on the Federal 
program. All such efforts start with the assumption that 
Federal funding will continue at its current level.
    The health of Rhode Island's transportation system is not 
just a local issue, however. The State is a key corridor 
between New York and Boston and part of a national network 
vital to the movement of people and goods throughout the 
country. The deteriorated condition of Rhode Island's roads and 
bridges therefore places stress on the network as a whole, a 
situation our region can ill afford. The condition of our 
system hinders Rhode Island's efforts to improve its economic 
condition. Rhode Island's unemployment rate remains near the 
highest in the Nation. The highway construction industry, in 
particular smaller contractors, cannot afford to lose an entire 
construction season due to the uncertainty of Federal funding.
    Rhode Island needs a long-term and fully funded 
transportation reauthorization bill to eliminate this current 
atmosphere of uncertainty and to allow the State to move 
forward with an annual construction program that puts citizens 
to work and keeps our economy going. I appreciate the 
opportunity to testify before you today and look forward to 
your questions.
    [The prepared statement of Mr. Lewis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you. My friend, Senator Inhofe, has 
asked to do an unusual intervention. And because of my respect 
and admiration for him, yes.
    [Laughter.]
    Senator Inhofe. Since we are talking about the one subject 
we are in total agreement on, I appreciate that.
    Senator Boxer. WRDA is too, WRDA and this.
    Senator Inhofe. That is right, infrastructure.
    Senator Boxer. Listen, two out of a hundred.
    Senator Inhofe. That is pretty good.
    Anyway, we are delighted to have Mayor Mick Cornett here, 
along with the other witnesses. I just wanted to be sure you 
got my message this morning. I came by earlier, thinking you 
might arrive early and we would have a chance to talk. You see, 
I had a hard time, a hard job once, I tell my friends up here. 
Being mayor of a city, there is no hiding place there. Sort of 
like the trash ends up in your front yard, and it did in mine.
    But I have a statement I will not read. I will put it in 
and submit it for the record. I am sure the Chairman will allow 
me to do that. And in that, I would make a reference to what 
happened yesterday. We are talking about perhaps some NAACS 
changes and ozone, how that could put us out of attainment. As 
you well know, all 77 counties in our State of Oklahoma could 
be out of attainment if they went down to something like 60 
parts per billion, having a tremendous negative effect on our 
road building capability.
    So I had some of these things, I am going to stay for a few 
minutes. But I am the ranking member on Armed Services, and I 
don't have a choice, I have to be up there, too. I thank you 
for allowing me to make that statement.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I'd like to welcome Mayor Cornett from Oklahoma City. It's 
great to have you here with us today and I want to congratulate 
you on your recent reelection. We look forward to your 
testimony.
    Today we're focusing on local transportation perspectives 
and I'd like to highlight two significant challenges to the 
future of the Federal Highway Program. One, which we are all 
well aware of, is the Highway Trust Fund shortfall. The other 
is something we haven't touched on in a while and it is the 
EPA's ever-changing national ambient air quality standards 
(NAAQS), and their effect on the ability for States and locals 
to build new roads and bridges.
    First, the Department of Transportation is projecting for 
the trust fund to run out of money sometime in August--before 
MAP-21 expires. In Oklahoma, Federal funding accounts for about 
half of ODOT's funding. Every year ODOT updates their 8-year 
plan--where they prioritize what projects get funded. Mike 
Patterson, ODOT's Director, has told me that the 8-year plan 
becomes a 16-year plan if Federal funding dries up; however 
that doesn't take into account the deferred maintenance which 
will drive costs up even more. Oklahoma City is intersected by 
three major interstates--I-35, I-40, and I-44--which connect 
the city and Oklahoma to the rest of the country. I am amazed 
that we continue to allow the physical platform of our economy, 
like these interstates, to decay, yet we continue to expect our 
just-in-time economy not to be affected. The additional 
friction costs associated with freight and commuting delays far 
out paces the cost of investing in these roads in the first 
place.
    Finally, after yesterday's hearing with Gina McCarthy, I'd 
be remiss if I didn't bring up the EPA's ongoing desire to 
change the NAAQS for ozone, which many in the highway world may 
not realize affects them tremendously. Any project in a county 
that is non-attainment must go through a conformity process 
under the Clean Air Act, which requires emissions offsets to 
any increased new mobile source emissions, for example--a large 
project like the newly completed I-40 Crosstown expressway in 
Oklahoma City.
    After the 2008 standards of 75 parts per billion, Oklahoma 
worked hard and spent a lot of money to maintain its 
``nonattainment'' status statewide. It has come to my attention 
that the staff at the EPA might be looking at a standard as low 
as 60 parts per billion. Behind me, you'll see maps of what 
would happen to the United States and Oklahoma if the EPA and 
the environmentalists are successful in unnecessarily lowering 
the standard from 75 ppm to 60 ppm. If this were to happen, it 
would add enormous additional cost to any new road expansion 
project.
    As Ranking Member of the Armed Services Committee I have to 
attend a hearing that we have going on right now, so I'm not 
going to be here for questions. However, I ask that the 
panelists submit the costs and burdens that will be associated 
with expanding your roads and bridges and attracting new 
businesses when you fall out of attainment because of the EPA.

    Senator Boxer. Senator, thanks. We will be working very 
closely together. Next week we are going to have a meeting with 
the Big Four, and then we are going to start meetings with 
everyone individually to get you all on board. Because this 
thing, you used the word crisis, Mr. Lewis, and I have to share 
that. This is a looming crisis that is upon us.
    So thanks. And now we will go back to our esteemed panel, 
and we will call on Ms. Sue Minter, Deputy Secretary, Vermont 
Agency of Transportation.

 STATEMENT OF SUE MINTER, DEPUTY SECRETARY, VERMONT AGENCY OF 
                         TRANSPORTATION

    Ms. Minter. Good morning and thank you, Chairman Boxer, 
Ranking Member Vitter, members of the committee. This is an 
honor for me to be able to speak before you today about the 
special issues facing small States and your opportunity with 
the next transportation reauthorization bill. It is also great 
to hear from you about the issues that we feel so passionately 
about.
    Our transportation network really is the backbone of our 
economy. And our economic strength and growth and success 
depends upon a 21st century transportation system. And now as 
our country is finally slowly climbing out of the great 
recession, it is critical that we fund a safe and reliable 
transportation system.
    Vermont, like many States, is confronting challenges of an 
aging and deteriorating infrastructure, as we have heard. While 
we have made substantial progress in the last 5 years, we, like 
others, still have 30 percent of our bridges that are either 
structurally deficient, functionally obsolete or both. And a 
quarter of our roads are considered in very poor condition.
    The highway network is an integrated system that literally 
ties our Nation together. And all States continue to need the 
Federal Government to play a leadership role in funding our 
system. Although Vermont is small and rural, we also play a 
significant role in the national network. We host two 
interstate corridors and a rail corridor to our Nation's 
largest trading partner, Canada.
    And this is why all State DOTs and our private sector 
contractors are extremely concerned about the pending 
insolvency of the Highway Trust Fund. Just the prospect of the 
fund running low on cash by this July has already motivated 
many States like Rhode Island to delay new capital projects. We 
must mitigate our risks, and we are all watching you to see 
what is coming next.
    I want to make it clear that if the fund is not replenished 
soon, project delays will become cancellations. And a reduction 
in our transportation projects directly translates into job 
losses in the construction industry and will have an immediate 
and negative economic impact. In a small State like ours, it 
can literally tip the balance on our fragile economic recovery.
    So on behalf of all of my DOT colleagues and our partners 
in the construction industry, we need you to refill the trust 
fund as expeditiously as possible.
    We also support MAP-21's focus on funding flexibility, 
performance measurement and innovation. Our State has benefited 
greatly from these reforms, particularly with our accelerated 
project delivery program. We understand that government must 
innovate, must strive for efficiency and demonstrate to our 
taxpayers that we are getting results for their investment.
    Finally, I would like to comment on the increasing 
challenges that severe weather is imposing on our 
infrastructure and our budgets. With the weather you have been 
seeing here in D.C., I am sure we don't need to remind you that 
winter is long this year. In Vermont, we are out today cleaning 
the 93rd winter weather event, an all-time high. Unfortunately, 
this is also a budget breaker and increases the degradation and 
the cost for our road maintenance.
    Across the Nation, weather patterns are changing. Natural 
disasters and weather events are increasing in frequency, 
severity and cost. In the past 3 years, the U.S. has tallied 32 
different billion dollar storms, ice and snow, floods, 
tornadoes, wildfires, drought and now landslides. In 2011, 
Vermont suffered historic flooding from Tropical Storm Irene, 
which ravaged our State in one night, damaging over 500 miles 
of road, taking out 34 State bridges. Because of infrastructure 
damage, 13 communities were totally cutoff by this flood, 
20,000 acres of farm land were flooded, 1,200 homes and 
businesses damaged, and most tragically, seven lives lost. 
Thanks to your help, and the Federal funding and in particular 
the Federal Highway Administration ER program, Vermont is now, 
two and a half years later, in a strong recovery. We thank you.
    I know well the toll of disaster. I helped lead our 
transportation agency's emergency response to Irene. And 4 
months later, I was deployed by Governor Shumlin to become the 
recovery officer for the State. Transportation departments are 
finding themselves in unexpected leadership roles as disasters 
strike, something I witnessed in Colorado. Irene taught us many 
lessons. I have seen the dramatic impact of infrastructure loss 
and the risks to human lives and economic security. I believe 
that resilient infrastructure is needed, and I request that we 
consider research and investment in resilience to be included 
in the next transportation bill.
    Thank you so much for the time and for the important work 
you do in sustaining our transportation system.
    [The prepared statement of Ms. Minter follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Boxer. Thank you for your excellent testimony.
    And we turn to Hon. Greg Ballard, Mayor, city of 
Indianapolis, Indiana.

     STATEMENT OF HON. GREGORY A. BALLARD, MAYOR, CITY OF 
                     INDIANAPOLIS, INDIANA

    Mayor Ballard. Thank you, Chairman Boxer, Ranking Member 
Vitter and distinguished members of the committee. I very much 
appreciate your allowing me to testify today.
    America's cities are preparing for a great revival. Many 
planners note that when our country built the interstate 
highway system starting back in the 1950s, it enabled an exodus 
from the urban areas to the suburbs. As we meet today, the 
tides of that population outflow are reversing, and we are 
witnessing a remigration to the cities.
    For many decades, transportation planning centered on the 
movement of people and goods between commercial and residential 
centers. Today, our cities face a much different transportation 
need, one of connecting people to each other and to unique 
experiences. New urban dwellers want to be connected to their 
neighborhood and their city through means other than a car. It 
is no longer a foregone conclusion that people will move back 
to the suburbs and commute to the city. A growing number of 
people are choosing to live local, shop local and eat local. 
They want access to an authentic urban lifestyle, and they want 
it right outside their front door.
    Last month, Richard Florida wrote an article in the 
Atlantic Cities magazine about what entrepreneurs want when 
looking for a place to start a business. Talent ranked No. 1. 
And words such as live, parks, schools and restaurants all 
ranked near the top of that list. The battle for the future of 
American cities will be won by the place that attracts and 
retains talent. It is clear those people want a high quality of 
life.
    I want to thank you for the funding you have previously 
sent to local governments for these types of projects. In Indy, 
we used it with local funds to build a variety of trails and 
greenways, such as the Monon, the Fall Creek, Light River and 
the Pennsy Trails. We also dedicated a portion of our 
innovative RebuildIndy fund, a half a billion dollars, to 
constructing bike lanes and trails connecting all corners of 
our city and making it an even more attractive place to live, 
work and raise a family.
    Indy is attracting national and worldwide attention for 
making the infrastructure investments that attract people to 
our city, which includes roads, bridges, alleys and so much 
other. The Indianapolis Cultural Trail connects six historic 
walkable downtown neighborhoods that contain unique arts, 
cultural heritage, sports and entertainment landmarks. It is 
also a great example of the greater good that comes from 
investing Federal, local and philanthropic dollars in new 
transportation options.
    The 8-mile Indianapolis Cultural Trail used to be traffic 
lanes and parking spaces. It now carries cyclists and 
pedestrians and serves as a worldwide model. It has been 
profiled in the New York Times. It won a prestigious Pinnacle 
Award from the American Downtown Association, and it has been a 
centerpiece of numerous articles listing Indy as a must-see 
city among all places in the world.
    In the few short years since it has opened, the trail has 
attracted at least $100 million in new investment to the city, 
that one trail alone. This trail and many other examples in 
cities across America demonstrate a bold new thinking toward 
urban transportation planning. A highway is still critical to 
moving goods to market. But if you want to attract workers to 
live in your city, you need sidewalks and bike lanes, greenways 
and so much more.
    In this country, local governments have always been the 
cradle of innovation and partnership. That is certainly true in 
the area of urban infrastructure development. America's 
greatness is rooted in its never ending quest to discover new 
technologies and pushing the boundaries of the unknown. In the 
new American city that exploration will not require travel of a 
great distance. It will be a journey to discover the culture, 
the food, the music and the people that are just a walk, a 
bicycle ride or a short bus ride away.
    Our future success in this endeavor requires strong 
partners and funding. I encourage you to continue our Nation's 
commitment to the Transportation Alternatives Program. Safe and 
viable options for people on bikes, transit and on foot are 
increasingly important in today's cities. And please keep those 
decisions in the hands of local leaders. The Cardin-Cochran 
Amendment has been very helpful in this regard.
    Thank you for inviting me to speak with you today. I look 
forward to answering any questions that you may have.
    [The prepared statement of Mayor Ballard follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Boxer. Thank you so much for that testimony.
    Mick Cornett, Mayor Cornett, welcome.

 STATEMENT OF HON. MICK CORNETT, MAYOR, OKLAHOMA CITY, OKLAHOMA

    Mayor Cornett. Thank you, Madam Chair. I appreciate the 
members of the committee, and especially Senator Inhofe, who 
has done so much to help transportation needs in central 
Oklahoma.
    I am the mayor of Oklahoma City. I have come here today to 
testify on behalf of my community.
    Today I would like to emphasize three points. The national 
transportation system and the transportation opportunities that 
support our population centers and communities are vital to our 
ability to grow and sustain the economy to ensure that the 
United States remains competitive in the 21st century. Second, 
investing in the care, maintenance and expansion of our 
country's critical and comprehensive transportation network 
cannot be left to the cities and States alone. The Federal 
Government must be a reliable partner and all investment 
options should be open for consideration to help ensure long-
term and consistent transportation revenues.
    MAP-21 was an excellent start. It delivered enhanced 
transportation opportunities through continued consideration of 
measures focused on expediting project delivery, transit and 
community initiatives and allowing resources to flow freely to 
the Nation's core infrastructures. Oklahoma City's economy is 
quite robust. We certainly have opportunities that exist now in 
Oklahoma City that we have not had in other times. We have 
recently completed a very large infrastructure project in 
Oklahoma City. We had an aging Interstate 40 bridge that went 
through the heart of our downtown area. It was crumbling and 
there were a lot of safety issues. That bridge has now been 
removed, the interstate highway has been relocated. And we are 
now working with our Department of Transportation to build an 
at-grade boulevard that can replace that old existing corridor.
    So we are still working on a project that has now about 16, 
17 years in the making and still not completed. But as it is 
completed, it certainly is helping central Oklahoma grow.
    I think that Interstate 40 project is a shining example of 
the partnership that we in Oklahoma City have with our other 
agencies. I think in Oklahoma City we have a very good 
relationship with our Department of Transportation and 
certainly our Federal delegation. The private sector is 
flourishing, and I think partly is it because of that 
relationship.
    We are also aggressively investing in the quality of life 
of central Oklahoma. We have a number of ongoing community 
initiatives with State and Federal partnerships. We are 
rebuilding our sidewalk systems, adding bike paths and lanes 
and improving a lot of our local streets.
    Just recently we were able to purchase the former Santa Fe 
Depot. Back in 2005, we completed a fixed guideway study that 
provided a 21st century blueprint for public transit in the 
Oklahoma City community. And this new Santa Fe Depot purchase 
will allow us to create a multi-modal hub in central Oklahoma 
City.
    We think the communities and States must understand and be 
able to project the availability of transportation resources if 
we are going to be able to plan initiatives and design and 
construct projects to meet the needs of our citizens.
    While a reliable investment of Federal funding is critical, 
an equally important factor is the minimization of Federal 
bureaucracy and regulatory actions. This is especially true 
when resources are scarce, as we know they all are. We simply 
must do everything possible to squeeze every benefit out of 
every dollar that is available for our infrastructure needs.
    The National Transportation Strategy and the associated 
Federal agencies' laws, regulations and policies should provide 
a simple framework that then allows and empowers the State and 
local governments to officially select and deliver 
transportation solutions to address their unique needs.
    In addition, the opportunities for Federal agencies to 
interject narrowly focused interpretations of the Federal law 
should be restricted to the extent possible. What we are seeing 
is that Federal agencies sometimes are superseding the 
congressional intent of the law by promulgating regulations or 
rules or by issuing guidelines or directives that serve their 
purpose or their perceived needs. Many times, these agency-
based actions and interpretations represent pure bureaucracy. 
They blur the critical lines between regulatory oversight and 
agency idealism and are at most times consuming and difficult 
for the States to manage.
    A specific example is the opportunity Oklahoma City has had 
recently by encouraging General Electric to invest in a new 
research development center. Part of the work from the State 
and local governments is to help with an off ramp project that 
really just needs to be redesigned. There is nothing 
complicated about this, but we have run into bureaucracy that 
has redirected the focus of our team. It has impeded our 
progress. We don't see any recognizable benefit.
    The city, State and private sector engineers working on 
this are experts in the field. They understand what is in the 
best interest of the city and the State. It is difficult to 
understand how these additional involvements of Federal 
Government are adding value to the delivery of this critical 
infrastructure.
    In concluding, as we consider the full magnitude of the 
current inadequacies of our national transportation system, we 
must work together to style the project delivery process to be 
more efficient and free from the unnecessary bureaucracy, laws, 
rules, directives or redundant regulations. The Federal 
Government must continue to invest in the transportation system 
and maintain an equally robust and equitable commitment to the 
transit and quality of life needed for our communities.
    Oklahoma City is at the intersection of three interstate 
highways that flow through our city: I-35, which stretches from 
Mexico to Canada; I-40, which stretches completely across the 
United States from California to North Carolina; and I-44 which 
runs diagonally through the State. Commerce is traveling 
through Oklahoma City. Investment in these types of interstates 
and the expansion of our transportation infrastructure is 
helping move American-made products to market. Well managed 
dollars committed to infrastructure improvements and community-
based initiatives directly materialize in our economy and 
enhance the ability of our businesses and industry to cost-
effectively move goods and provide services.
    Today's investments in transportation truly represent an 
investment in ourselves and more importantly in the future 
viability of this Nation and the safety of our families. Thank 
you, Madam Chair.
    [The prepared statement of Mayor Cornett follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you so much, Mayor, for that excellent 
testimony.
    Mr. Bill Fontenot, President of St. Landry Parish, 
Louisiana.

   STATEMENT OF BILL FONTENOT, PRESIDENT, ST. LANDRY PARISH, 
                           LOUISIANA

    Mr. Fontenot. Madam Chairman Boxer, Ranking Member Vitter 
and members of the committee, it is an honor and a privilege to 
testify before you today. My name is Bill Fontenot, and I am a 
professional civil engineer that had the privilege of working 
38 years for the Louisiana DOTD of which the last 18 years of 
that career was serving as a regional district engineer 
administrator for the eight-parish Acadiana region.
    The Acadiana region is where Mardi Gras is less about 
parades, kings and queens throwing beads, but more about the 
common, ordinary man dressing up in colorful costumes and masks 
and riding horses throughout the countryside, chasing down 
chickens and guineas to be included as ingredients to a 
delicious gumbo dinner during the evening before Ash Wednesday.
    I retired from Louisiana DOTD in 2011 and now currently 
serve as the president of St. Landry Parish Government in south 
Louisiana. I am pleased and proud to introduce to you St. 
Landry Parish Councilmen Jerry Red, Jimmie Edwards and Timmy 
Lejeune along with our Director of Operations, Jessie Bellard, 
who have accompanied me to Washington, DC, to visit with you. 
They are here in the room today.
    Senator Boxer. Raise your hands, please? Welcome.
    Senator Carper. Do you promise to tell the truth, the whole 
truth and nothing but the truth?
    [Laughter.]
    Mr. Fontenot. If they want a ride home they have to, yes.
    These councilmen, with a majority of others, and I worked 
very hard over the first 2 years of my administration to 
convince parish voters that local roads were never going to 
meet the level of service that they so wanted and needed. There 
existed no dedicated local funds for road improvements ever in 
the history of the parish. This effort of hard work resulted, I 
am happy to report, in the passage this past October of a two 
cent sales tax, 15 year referendum for the rural areas only 
that will be dedicated solely for improving roads. History was 
made. Our voters were finally convinced that we as citizens of 
the parish needed to learn how to buckle our own bootstraps 
relative to addressing our local highway issues.
    I am here to tell you that this sales tax will go a long 
way to mending our roads for a long time. But we will continue 
to need Federal assistance to make the best of meeting the very 
expensive requirements to replace the many bridges that are 
deficient. Therefore, I would like to respectfully offer the 
following priorities for your consideration during the 
development of the next surface transportation bill.
    First, we ask that you continue the Federal funding set-
aside for off-system bridges and consider increasing overall 
funding for bridge replacement and rehabilitation. The Nation's 
counties, which we are considered one of, own a significant 
amount of the Nation's off-system bridges. In fact, off-system 
bridges represent 76.5 percent of counties' bridge inventory. 
Overall, off-system bridges represent 47 percent of the 
national bridge inventory. And this is a particular issue to us 
because Louisiana parishes own 33 percent of our State's public 
bridges.
    Second, we respectfully request that you work hard to 
achieve the timely passage of a Federal surface transportation 
bill that provides increased, stable and long-term funding so 
that Federal, State and local highway planners can create 
logical strategies to addressing highway needs. The political 
leadership at all levels needs to support this as our citizens 
do not understand or appreciate the lack of it. Our quality of 
life depends on it, our economy depends on it.
    Third, a specific Federal change needed, that may fall 
beyond the scope of today's discussion, and I hear a lot about 
it, is the Federal wetlands banking requirements whereby the 
right of way mitigation ratio at times ranges from 3 to 1 to 5 
to 1. This exorbitant cost will cause some valid projects not 
to be constructed under this mandate. We ask that you look at 
reducing this requirement, if possible, and also allowing 
purchasing current wetlands areas in advance for credit in 
consideration of future projects. This is currently not 
allowed.
    Fourth, relative to what was once called transportation 
enhancement funding, now known as transportation alternatives 
funding, which is something as a district administrator under 
the enhancement program I very much promoted in my area. But I 
am hearing now that under this program, that the ability to 
obligate this funding is becoming complex, to the extent that 
many local governments will be hesitant to spend money, energy 
and time to apply for such funding that could really benefit 
our communities.
    Fifth, we ask for increased funding for improvements to 
minor road connectors that are so important to local commerce 
relative to moving goods, mobility for jobs and recreation, all 
boosting economy and quality of life. A special rule in MAP-21 
allows States to use up to 15 percent of the Surface 
Transportation Program funds suballocated for areas with a 
population of 5,000 or less on rural minor collectors. We would 
like to see this expanded to a greater percentage and to areas 
exceeding a population of 5,000.
    Sixth, and finally, as you might expect, we support and 
encourage necessary Federal funding to complete I-49 south in 
Louisiana. I wish to acknowledge and thank the National 
Association of Counties for their untiring efforts working with 
local governments and Congress to create a quality highway 
bill. I think you get it.
    Thank you so much for allowing me to speak today and for 
your dedicated service to our good old USA.
    [The prepared statement of Mr. Fontenot follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Boxer. Thanks so much, sir.
    Mr. Jim Willox, Chairman, Converse County Commission, 
Wyoming.

STATEMENT OF JIM WILLOX, CHAIRMAN, CONVERSE COUNTY COMMISSION, 
                            WYOMING

    Mr. Willox. Good morning Chairman Boxer, Ranking Member 
Vitter, Senator Barrasso, and members of the committee. I thank 
you for this opportunity today.
    My name is Jim Willox, and I am Chairman of the Converse 
County Board of Commissioners in Converse County, Wyoming, and 
also serve as Chairman of the Transportation Committee of the 
Wyoming County Commissioners Association.
    Converse County, Wyoming, is fairly representative of many 
western counties in our part of the United States. Low 
population factors, when combined with our climate and the high 
percentage of Federal land ownership within our borders, create 
unique transportation challenges for Wyoming and our counties, 
including Converse.
    From a rural county's perspective, the continued viability 
of a Federal partner in road and bridge projects is of the 
utmost importance. The National Association of County Officials 
has pointed out that a full 45 percent of the Nation's public 
roads are owned and operated by counties. In my county alone we 
maintain over 620 miles of roads. 512 miles of that is gravel 
road. We also maintain 36 bridges of various sizes.
    When I think about that transportation system, I think of a 
fellow commissioner of mine who is a cattle rancher in southern 
Converse County. In order for him to deliver his cattle to the 
national and global marketplace, he first loads them up on a 
semi-truck and travels 6 miles on a gravel county road. He 
travels 5 miles on a paved county road, 3 miles on a Wyoming 
State highway, 68 miles on Interstate 25, 49 miles on a U.S. 
highway, and finally to a local city street where he delivers 
those cattle to market.
    In northern Converse County I can describe to you a similar 
route that millions of dollars of oil and gas production takes 
to reach the market or refineries, or a similar route that a 
tourist takes to reach the Medicine Bow National Forest to go 
camping. If a weak link exists in any part of that system, the 
rancher's ability to put a steak on our plate, the oil and gas 
industry's ability to fuel our cars and heat our homes, or that 
outdoor adventure for the tourist is stymied.
    At the county level we invest a great deal to make sure our 
portion of roads are in good shape, and we have an excellent 
partner in the State of Wyoming and WYDOT. However, the ability 
of Wyoming and its counties to fund road and bridge projects is 
heavily dependent upon the continuation of a long-term Federal 
highway program, and in turn, the continued viability of the 
Highway Trust Fund.
    As you look at Federal programs, the success or failure of 
any Federal highway program in Wyoming can be reasonably 
predicted on one question: does the program provide enough 
flexibility at the local level? If the answer is yes, then that 
program can be successful.
    MAP-21 did provide some more flexibility, and that is 
helpful. But I respectfully ask that you give further 
consideration to providing more flexibility and fewer rules so 
that local governments are not unduly burdened, and so that 
road and bridge safety projects can proceed promptly and 
efficiently. This is particularly true in rural areas, where we 
often find ourselves attempting to force the round peg of 
small, rural projects into the largeness of square Federal 
rules.
    As an example of this delay it took the BLM 10 months to 
determine that Converse County indeed did have a right-of-way 
on a road that had been in existence since 1892. After that 
delay, we still faced the usual ones imposed by NEPA and 
related environmental reviews. At best, those NEPA reviews 
require several weeks of analysis, much longer if there are 
complicating factors. In those cases, environmental reviews 
rarely provide flexibility for maintaining existing roadways, 
even when the activity itself has minimal impact.
    Seasonal wildlife stipulations placed on surface 
disturbance for new construction over virgin territory may make 
sense. But if a county is planning to work on a road that has 
existed since statehood, I don't think we need to jump through 
those hoops designed for new construction. Our harsh climate 
and short construction season means we must plan for even the 
smallest projects in advance. Unnecessary delays imposed by 
NEPA, Corps of Engineers and other environmental reviews or 
other Federal requirements can push important public safety 
projects off for an entire year or more.
    I urge a careful look at how the environmental review and 
permitting processes can be further streamlined so that road 
and bridge projects can be completed in a timely manner and we 
spend more dollars on concrete and pavement and less on paper.
    I leave you with this final thought. We talk a lot about 
the information highway and how we can sit at home on our coach 
and order wool socks, or a big screen TV. However, if we fail 
to invest wisely in our deteriorating real highways with 
gravel, concrete, and pavement and bridges, the sheep's wool 
and the rare earth minerals needed to create that TV will never 
reach the manufacturer and never be able to be delivered to the 
consumer.
    I thank you for this opportunity to testify today and I 
look forward to your questions.
    [The prepared statement of Mr. Willox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you so much.
    And last but not least, Dave Gula, Principal Planner, 
Wilmington Area Planning Council, Delaware.

  STATEMENT OF DAVE GULA, PRINCIPAL PLANNER, WILMINGTON AREA 
                   PLANNING COUNCIL, DELAWARE

    Mr. Gula. Good morning. I would like to thank Chairman 
Boxer, Ranking Member Vitter, Senator Carper from Delaware and 
members of the committee for inviting us here today to 
represent WILMAPCO and to speak about the MAP-21 
reauthorization.
    The WILMAPCO region is different in that we span two 
States, two counties. We have New Castle County, Delaware and 
Cecil County, Maryland. So our area of influence is different 
in every State or city. We were very happy to see both the 
transportation enhancements and the Safe Routes to School 
programs were carried forward into the Transportation 
Alternatives Program in MAP-21. They are very important tools 
that we use when doing community planning.
    We have used these funds to implement projects that have 
been recommended by community planning studies that we carried 
out, Southbridge Circulation Study being one of those. 
Southbridge is a low income, minority neighborhood in South 
Wilmington that has been a focus of our environmental justice 
reports. The circulation study recommended that sidewalk, bus 
stop and intersection improvements be implemented, but there 
was no funding at the capital program for DelDOT. So we used 
those funds to implement those projects in a much more timely 
fashion. Very helpful for us in delivering these projects to 
the community.
    Also at the local level, there is a struggle to make the 
needed investments in transit for a middle size city like 
Wilmington, Delaware, and a rural county like Cecil County, 
Maryland. As Mayor Ballard noted, demographics are beginning to 
change in the U.S., and we are seeing both baby boomers and 
millennials finding common ground in transit use. We see yearly 
ridership growth in both DART in Newcastle County and in Cecil 
County's transportation system.
    Millennials are no longer married to their cars. In fact, 
they would give those up before their cherished cell phones. I 
have two millennials, a 19-year-old and a 26-year-old, and you 
could never get the phone out of their hands, but neither one 
of them has ever owned a car. That has been a challenge. I live 
in a rather suburban area in Newcastle County, but we made it 
work.
    So that new workforce, they are gravitating to different 
locations. They are going to activity centers, cities and 
towns. The empty nest boomers are looking for similar lifestyle 
changes. These groups are more likely to ride a bike or walk a 
few blocks than necessarily get into their car or call a taxi. 
We have to make the best investments with our transportation 
funding to those two groups because they will leave our region 
and they will go somewhere where they can get those multi-modal 
choices.
    Our region is along the northeast corridor. We support 
Amtrak's mission, and we coordinate with them for local 
planning projects like a new train station and the Newark 
regional transportation center that is being built in Newark. 
But when we consider city to city passenger services within our 
region, we often work with the Delaware Transit Corporation, 
SEPTA or MTA's MARC train service.
    Unfortunately, use of States' capital and operating funds 
are separated by State lines. So the 20-mile gap in commuter 
passenger service between the MARC train station in Perryville, 
Maryland, and the SEPTA trains in Newark, Delaware, is a 
constant reminder to WILMAPCO that passenger rail is a regional 
concern.
    In other areas of need, we have freight movement, 
especially by rail, that is coming into greater focus at a 
regional level. In our region we see the need to plan for more 
track capacity as trains transport crude oil from the western 
U.S. to refineries on the east coast. In Delaware it is the PVF 
Refinery in Delaware City.
    In the process of completing the Chesapeake Connector 
Freight-Passenger Rail Benefits Study for our partner agencies 
MDOT and DelDOT, we found that there are some changes that need 
to be made. One concern with a regional study of this nature is 
that while the project is important to both Maryland and 
Delaware for freight movement, Delaware's capital funding 
cannot be used for physical improvements in Cecil County, 
Maryland, which shows that the ability to plan regionally is 
great, but if you can't fund regionally then it is much more 
difficult to finish the project.
    Another concern is linking land use and transportation 
priorities. That is more important at a time when 
transportation trust funds in both States and the Federal 
Government are running empty and the physical landscape is 
dominated by suburban development. WILMAPCO has participated in 
studies like the Churchman's Crossing Infrastructure Investment 
Study and the U.S. 40 Corridor Improvement Study, which are 
local studies in which transportation agencies, local and 
county planners and elected officials work together in a public 
forum to create a multi-modal plan for prioritized improvements 
in transportation with a coordinated land use plan. The 
projects are ranked by not just importance but how they can be 
implemented. These projects are located in our region's core 
investment areas, and the MPO process is an ideal vehicle to 
facilitate this kind of project collaboration.
    In closing, WILMAPCO asks that the new transportation bill 
build on the successes of SAFTEA-LU and MAP-21 to continue and 
strengthen the focus on collaboration and coordination. That is 
a hallmark of the MPO process. This type of planning requires 
time to build relationships and trust, both with agencies and 
the public. We ask for consideration to extend that bill beyond 
the 2-year period to stabilize the funding sources and to 
provide the program guidance documents with the release of the 
bill, so we can get right to work.
    Please continue to fund the TIGER program. It rewards 
creative projects and strong local coordination and it is a 
very competitive format. We would also like to see more 
flexibility in the use of the STP funds to support passenger 
rail expansion. It is difficult to do that with the funding 
program, with the funding permit as it is laid out now.
    We would love to have a TAP for community projects but are 
concerned that when the project was combined, Transportation 
Enhancements and Safe Routes came under TAP, both funding pools 
lost funding. It was condensed to smaller funding portions. 
Another program that we would like to see benefit from greater 
coordination and stronger guidance is CMAQ. In a time of 
changing social notions regarding transit and multi-modal 
transportation, the next transportation bill can provide 
programs and leadership that will be necessary to adapt the 
U.S. transportation system to meet the changing wants and needs 
of our residents.
    Thank you very much for letting me be here today.
    [The prepared statement of Mr. Gula follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Boxer. Thank you all. I found this to be very, very 
helpful. It was interesting for me to hear from the mayors, to 
hear from the parish, to hear from the States and all these 
perspectives.
    And I honestly think that each of you has put on the table 
issues that we can work on together. Some of you, it was just 
interesting because as I look at each of you, so many of you 
said bridges, we need attention to our bridges. This is a 
danger. Some of you stressed the fact that the alternative 
transportation is working and you want to see that continue. 
Others said resiliency, given the weather. Others said, give us 
the funds but essentially, butt out. I heard that.
    And that is easy for you to say, because if you guys mess 
up, then we are the ones who get the blame. So there has to be 
some way that we can make sure that these funds are used right, 
just as you would want to make sure, if you gave a grant, that 
they were.
    But I do hear you, and I do think there are ways to move. 
But I want to sort of press on some of these things. And let me 
just assume this. Regardless of all of your priorities, can I 
assume that all of you agree that we must make sure that this 
trust fund is solid and that it is reauthorized in a multi-year 
basis so you have certainty? Does anyone disagree with that?
    So then I think that is important. Because before we get 
into how much more flexibility or lack of same or what we will 
do. We have got to figure this thing out. That is why I was so 
fortunate to have Senator Carper, now, taking over as the chair 
with Ranking Member Barrasso. Because he does have the link to 
the Finance Committee. And that is going to be essential.
    So I was hoping maybe, I think it was Mayor Ballard, I 
think you said how you felt the Cardin-Cochran Amendment was 
working well. Could you expand on why it is working well?
    Mayor Ballard. Yes, Madam Chair. Because that mandated that 
a lot of this money goes to the MPOs and the local folks. And 
that, because of how money flows down from the Federal 
Government, I think that is very important. Sometimes depending 
on what State you are in, it can flow in different directions. 
We are 90 percent of the new jobs coming in, the cities are. So 
we want to do a good job, and we think we need to continue to 
invest in the city to attract the talent that I was talking 
about. And that is why I think the Cardin-Cochran Amendment is 
very important to Indianapolis, and I think it probably was for 
other cities.
    Senator Boxer. And that dealt with the alternative 
transportation, did it not, that section?
    Mayor Ballard. Yes, Madam Chair, it did.
    Senator Boxer. I think that is so important. Because I have 
heard from New York and other Senators from other States who 
say they don't like the fact that some of their States get the 
money instead of it going to the more local people. In my case 
in California, we have these planning agencies. It works quite 
well. So you don't give it to the State, the State takes 10 
percent off the top.
    So I think you are right. As we look forward, I hope we can 
do more of that.
    Could you expand, Mayor Cornett, about the problems with 
General Electric? I was confused about that. You have a private 
sector wanting to build something and the bureaucracy is not 
letting it happen. I couldn't follow it. Tell me what the 
problem is.
    Mayor Cornett. In siting their new location, we were going 
to reconstruct an off ramp off of I-235 in central Oklahoma 
City. We were advised by the FHWA that an access justification 
report would be required even though our people at the 
Department of Transportation did not think it was necessary, we 
thought it was a straightforward improvement, just simply 
enhancing traffic flows on one single ramp. And cut to the end 
of the story, we have now been delayed 120 days for a process 
that we don't feel like is even necessary to begin with.
    Senator Boxer. And this is off of a Federal highway?
    Mayor Cornett. Yes.
    Senator Boxer. OK. Well, and you are using Federal funds?
    Mayor Cornett. Yes.
    Senator Boxer. Well, I would assume you would have an 
interest, since it is a Federal highway using Federal funds. 
But I don't like the fact that it sounds like it has been held 
up, and you say there were no, what were the problems that 
anyone suggested?
    Mayor Cornett. I believe that the tightness of the curb was 
just a little bit tighter for safety precautions. They wanted 
to ease the angle.
    Senator Boxer. OK. Well, sir, I would suggest, I agree with 
you, this thing should not be held up. But if it is a safety 
question, and it is a Federal highway, Federal money and 
somebody careens off there, it becomes a Federal problem. I 
just think what we need to do is help make sure that you get 
these answers in a quicker way. I don't think we should step 
away. But this could be a difference. I feel responsible, if it 
is a Federal highway, that it be safe. Because we have 
situations in California where the State did not do due 
diligence on a new bridge, and we are very scared about what 
could happen. Some of the parts came from other places.
    But I would love to help you with that. If there is 
legitimate problems, believe me, I would love to help you with 
that. What I have found in most of these cases, including Mr. 
Willox, your point about NEPA, it took 3 weeks, well, yes. But 
it may at the end of the day mean that you have a better plan. 
My view has always been, let's have timetables that make sense. 
I took a lot of heat from my environmental friends because I 
want timetables, let's move. But I don't think you should just 
walk away if it is a safety question or an environmental issue.
    So this is something we will work on in our 
reauthorization. It is always a tense situation between 
Republicans and Democrats. But we found that sweet spot the 
last time, how do you keep the Federal interest but not make it 
difficult and unnecessary delays. That is what we will continue 
to work on as we reauthorize.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair, and thanks to all 
of you again for being here.
    President Fontenot, you mentioned bridges. There are a lot 
of bridges in need of repair and replacement in St. Landry 
Parish and in Louisiana. Would it be helpful to St. Landry 
Parish to be able to bundle some of these smaller bridges 
together as one project to create more efficiency by reducing 
red tape, to use common designs and to be able to tap a larger 
match, that larger projects could enjoy?
    Mr. Fontenot. Absolutely, I agree, and I have read what 
they have done in Pennsylvania. Actually, we do look at our 
position with other parish presidents that this is a regional 
issue. It is not a parochial issue. So yes, we would bundle 
with other parishes and the State and yes, partnering and 
bundling, absolutely. We get a better bang for our buck, we get 
to clear these bridges, more bridges than just one or two. I 
think it would advance the process and the project delivery 
with a great deal more efficiency and a great deal more 
appreciation from the public. Because they are very smart and 
aware that it is taking a very long time to go from the idea 
that a bridge is necessary to be replaced, it is on a list, and 
then it takes years to get there. So absolutely, that would be 
a great idea, yes.
    Senator Vitter. Great. We will pursue that.
    You mentioned your two cent sales tax and the Smooth Ride 
Home program, as you all have deemed it. Can you talk about 
that process and the level of trust you developed to pass that 
and what lessons you think that offers to us?
    Mr. Fontenot. First of all, for such a long time, on the 
local level, at least for probably our State, and particularly 
our parish, we were always looking to the Federal Government 
and State government to solve our issues. Basically I worked in 
the State government for 38 years, worked with many parishes 
and looked at things statewide, and in particular talking to 
the leaderships in the parishes. I saw other parishes start 
doing for themselves rather than waiting on the State and 
Federal Government. And working inside the government, I felt I 
was a bureaucrat, yes, but I had an outsider's point of view.
    But I think I had finally reached a practical point of view 
that I think most of us should have, is that we cannot in this 
day wait on the Federal and State government to be the solve 
all, end all. We need to do something for ourselves.
    So when I retired from DOTD, I didn't have being the parish 
president on my radar. But people out there said, well, you are 
the highway guy, you can help us here in St. Landry Parish. We 
had 700 of our 800 miles in terrible shape. So I took on the 
challenge. But went out with these councilmen behind me and 
others, other councilmen, and actually brought a sheet of paper 
and hundreds of copies, folded them, we had about 35 to 40 
public outreach meetings over a 3- to 4-month period where we 
sat with 3 people or 300 people, citizens. We advertised that 
we need to talk to you about this, this is a very important 
issue to you, it is for us, it is for the future of our parish.
    So in reality, I bring you the paper of truth. Here is the 
budget. There is no money in it on the local budget for roads. 
So whether you are first or last on a list to be improved, it 
doesn't matter, it won't happen unless we pass our own tax, 
fund it ourselves. And for the most part, our citizens were for 
sales tax rather than property tax. So basically we brought 
them the paper of truth.
    Senator Vitter. And I take it in that discussion a key, 
maybe the key, was complete dedication?
    Mr. Fontenot. Absolutely.
    Senator Vitter. This money is not just for this area of 
activity, but these projects?
    Mr. Fontenot. Right. In fact only for roads and bridges and 
related drainage, to make sure the road drains. And we also 
brought in the paper of truth the actual legislation that they 
would vote on to create a law and not depend on a promise. Many 
times we heard in the past that issues had failed because they, 
when we had, let's say, racinos brought into our parish through 
legislation, they said, well, the racinos were supposed to be 
the solve all, end all, and basically they had never seen the 
legislation.
    So we brought it to them. It has nothing in there about 
being dedicated to highways. So we brought them the paper of 
truth and said, this is what you vote on. If you vote on this 
by the summer of 2014, we will be paving roads, and we plan on 
doing that. So 60 percent of the voters passed it, first time 
in the history of the parish.
    Senator Vitter. Thank you very much.
    Mr. Fontenot. Could I say one thing about the alternative 
financing, which was enhancements? When I was a district 
administrator, I felt that when local folks came, they came, we 
knew we needed hundreds of millions of dollars of highway 
improvements, interstates, national highway system, local 
roads. But we all know, and even the most unreasonable person 
knows that takes a long time. But when you have a piece of 
funding offered to repair sidewalks and do the bicycle paths, 
that shouldn't take a long time.
    So I am not saying that you should have this legislation in 
place and then get out of the way, but I think what we are 
saying, and I believe I am correct on this, we shouldn't have 
to jump through all the hoops for a million dollars' worth of 
funding compared to the hoops that have to be jumped through 
for a hundred million. So maybe we could have a tier there, or 
a level, or a limit, that when you reach a hundred million or 
less, you could have less bureaucracy for it. Like hiring our 
own consultant engineer. We can do that under the same rules 
and laws, and you guys could audit it, and if we don't do it 
right, well, then, take that from us. But maybe have a limit on 
the funding, where we could set a tier where under that certain 
level of application of funding, we could do some of the work 
ourselves in coordination with you guys.
    Senator Boxer. We will look at that. A hundred million is a 
lot of millions. But I got your point, and I think it is well 
taken.
    Senator Sanders.
    Senator Sanders. Madam Chair, my understanding is, we have 
heard from all of you that, I think we are in agreement that 
our infrastructure is crumbling. We need more Federal 
assistance. We need it long-term, we need reliability. We have 
heard that small towns, rural towns in Vermont and Wyoming are 
different than big cities, we need flexibility.
    Now, this committee, as the Chair has indicated, does not 
really deal with the financing. But, so as to make your life a 
little bit miserable, let me ask you a question. At a time when 
many of our people are struggling economically, at a time I 
know in Vermont people travel long distances to work, I am sure 
that is true in many rural States, we are struggling with how 
do you fund the Highway Trust Fund.
    Very briefly, just very, very briefly, why don't you give 
us some ideas? This committee doesn't deal with it, as Senators 
we are going to have to deal with it. What do you think? Just 
very briefly go right down the line. What are your ideas?
    Mr. Lewis. Senator, I think one of the answers to that 
question is timing, what could we implement and in what period 
of time. I think there has been a lot of discussion about 
shifting to perhaps a mile traveled fee, or a user based fee 
based on distance of travel. There are pros and cons to that, 
but I think we are starting to work through some of the issues. 
Oregon has done some pilot work on that, other States are 
becoming more interested in that.
    Senator Sanders. OK, you see that as an option?
    Mr. Lewis. But it is not going to happen overnight.
    Senator Sanders. OK. Ms. Minter.
    Ms. Minter. I would agree with my colleague, and as you 
know, we did 2 years ago, last year, increase our gas tax and 
diesel taxes to make up for the difference in the decline in 
the vehicle miles traveled, and the increasing emissions. 
Improving the vehicle emissions standards has meant that 
relying on that transportation, for transportation, is simply 
not sustainable.
    So if we want to have a user fee approach, that is why we 
are looking to the vehicle miles traveled. Electric vehicles, 
while they save, are not going to be able to pay into that 
system.
    Senator Sanders. Mayor Ballard.
    Mayor Ballard. I would be remiss if I told you that I 
understand all of your funding mechanisms and all the things 
that are available.
    Senator Sanders. We don't either.
    [Laughter.]
    Senator Boxer. Well, it's pretty much gas tax.
    Mayor Ballard. But we were pretty creative in the city of 
Indianapolis, when we did our RebuildIndy. I do think 
eventually the VMT is going to have to be something we look at, 
in Indianapolis, or we are deep into technology and moving in 
that direction. So that was probably something to be looked at.
    Senator Sanders. Mr. Mayor.
    Mayor Cornett. Two thoughts. I think whatever taxation 
system is used, it needs to be tied to miles driven. So I think 
the gas tax is an appropriate solution.
    I would also, though, recommend that we start spending more 
on R&D so we can start reducing the cost of the projects 
themselves. I am still waiting for some big technology 
advancement in infrastructure, in raw materials or in 
construction costs or design, that can somehow reduce the costs 
of these so we don't need to raise so much money.
    Senator Sanders. Mr. Fontenot.
    Mr. Fontenot. Certainly everybody wants it, and nobody 
wants to pay for it. But I will tell you, I think we ought to 
offer up the papers of truth and tell them what it will cost if 
we use VMT and what it will cost if it is a gas tax. But there 
is no doubt it needs to be increased, funding needs to be 
increased. Thank you.
    Senator Sanders. Mr. Willox.
    Mr. Willox. Senator, it is no doubt above my pay grade to 
figure out the financial mechanisms. But I think the key is, 
whatever mechanism you look at has to have the realization that 
New York City and Converse County, Wyoming, have different 
needs and different purposes. I think whatever funding we get, 
the more we spend on concrete and pavement and the less we 
spend on paper, that is where the taxpayer really benefits. So 
I go back to my flexibility question, whatever the formula is.
    Senator Sanders. Mr. Gula.
    Mr. Gula. There is not much left, once you get to this end 
of the table, that everybody hasn't already said. We certainly 
agree that the vehicle miles traveled is another way to look at 
it. It would follow that hybrids and better fuel efficiency, 
individual States need to be willing to raise their gas taxes 
and index them to increases. Because we have already seen that 
in Maryland and Pennsylvania and Delaware, you have to do so. 
So they are in the process of trying to do something.
    Senator Sanders. My very last question is, talk about 
investment in infrastructure and jobs and the economy. If we 
provided you with substantial sources of funding, we had a 
creative relationship, does anyone doubt that that would not be 
a significant job creator, both in rebuilding the 
infrastructure and the long-term impacts of the strong 
infrastructure on job growth?
    Mr. Lewis. Senator, it is absolutely a direct tie. There is 
no question about that. And we saw that with the American 
Reinvestment and Recovery Act. Those dollars went right into 
the infrastructure, right into the local communities, right 
into paychecks. I think a $100 million investment in Rhode 
Island equates to 1,300 job years of employees. You can see it 
all across the country, big projects, small projects, what 
investment in infrastructure has done for the local economy. 
You just have to look to the Boston area, to a very 
controversial project that I was previously involved with and 
what it has done for the economy of Boston, Massachusetts.
    Senator Sanders. But not only the jobs created by the 
projects themselves, but long term, the ability to bring in 
investment in improved infrastructure. No one has any doubts 
about that?
    Mr. Lewis. That's exactly right.
    Senator Sanders. OK. Thank you very much, Madam Chair.
    Mr. Fontenot. I would say, though, that we need to get 
going. Because it takes a long time to jump through these 
hoops. That is why I say, with the smaller projects, let us get 
some of that done and you check on us. If we screw it up, take 
it away from us.
    Senator Boxer. Anyone who has convinced the public they 
have a paper of truth is someone who I will listen to.
    [Laughter.]
    Senator Boxer. Senator Fischer.
    Senator Fischer. Thank you, Madam Chairman. And I will 
listen to you also, thank you all for being here today.
    When I visit with the Nebraska Department of Roads, there 
is a lot of frustration that these very limited Federal dollars 
that we have are being used on the requirements, on a lot of 
paperwork and that really don't affect the social or the 
environmental or historical aspects of these projects. Many of 
you have mentioned that, and your frustration with it as well. 
Chairman Willox, in your testimony, you say that counties must 
submit to several pages of environmental review forms to 
multiple Federal and State agencies, further lengthening the 
time it takes to receive approval.
    Do you have any estimate on the cost that that is going to 
add to projects in your county?
    Mr. Willox. Senator, I can't give you specifics on it, 
because it varies so much by which project and what the hoop is 
you are jumping through. But I can give you two paper examples. 
We are improving a road that is in my written testimony, we are 
putting a culvert into this road that has existed since 1892. 
Our application to the Corps of Engineers was 82 pages plus 
maps to disturb 960 square feet of dirt. It is a road that has 
existed long before any of us here, long before the regulations 
were created. But we are jumping through that hoop.
    Another county in Wyoming participates in the High Risk 
Rural Roads project. To just add guardrails or to be put center 
yellow lines striping on the road, they had to submit 
paperwork. Now, it wasn't huge and burdensome, but if you are 
going to paint yellow stripes on the road, you shouldn't have 
to apply to do that. It should be instantaneous, it should be 
quick.
    Senator Fischer. Do you think maybe this committee and this 
Senate needs to look at how we address the categorical 
exclusions on projects? I think that is what you are talking 
about on these, and the amount of paperwork that goes into them 
and the back and forth with the different agencies and the 
bureaucracy involved in that. I see a lot of nodding on the 
panel, that many of you think so. Do you think so, Chairman?
    Mr. Willox. Senator, categorical exclusions is a step in 
the right direction. But it is still a process we have to go 
through to get to categorical exclusions. So it definitely is a 
movement in the right direction and that has been official. But 
that time, money and effort isn't concrete, pavement and 
bridges. That is what I get stopped in the grocery store about, 
make sure Road X is paved, pothole fixed, bridge redone. They 
don't say, fill out more paperwork so we can get it done. They 
want action on the ground.
    Senator Fischer. Right. Thank you.
    Mayor Cornett, in your testimony you talk about 
encountering those Federal stumbling blocks. Can you give me 
some examples of those as well, and the burdens that they place 
on your project delivery? And what do you think are some of the 
biggest obstacles that you are faced with, the different 
Federal rules and regulations?
    Mayor Cornett. Well, one example is that I-235 project, 
which in Oklahoma City is near 10th Street and Harrison. We 
were trying to address some traffic flow situation for the 
General Electric facility that is getting ready to be built. We 
assumed that we would not need what is called an access 
justification report. But we were informed by the Federal 
Highway Administration that we would need it.
    And we are now 120 days beyond where we think the project 
should be. It is a very, very simple project, and we are just 
trying to enhance the safety and enhance the traffic flow. It 
just seems like there is unnecessary paperwork and bureaucracy 
in between it.
    Senator Fischer. Thank you so much. Director Lewis, with 
the State Department of Transportation in Rhode Island, how 
would you characterize, I don't mean to put you on the spot but 
I am going to, how would you characterize your department's 
relationship with your Federal partners? And are there any 
areas that you can maybe point to for improvement?
    Mr. Lewis. That is an excellent question. We have a very 
good relationship with our Federal partners in Rhode Island. I 
think many of us have spoken about that, and the real key to 
success is when we are all working together with a common goal. 
And I think the successes you will see across the country are 
rooted in that. The city, the State, the county and the Feds 
are all working together. When one or more are separate from 
that group, that is when you run into problems. Because if we 
are all pulling in the same direction, we are going to get a 
successful and a quick turnaround.
    Senator Fischer. Do you see quick turnarounds, or do you 
see maybe some delays, too, with paperwork, as we have heard?
    Mr. Lewis. We have our own share of issues that we would 
like to accelerate. I think characterizing it on the whole, we 
have a very good relationship and a very responsive division 
office for the Federal Highway Administration. We have no 
question there are issues.
    Senator Fischer. We work so hard for funding for these 
projects. And it is very frustrating to sit back and watch the 
delays as construction costs increase. And they are increasing 
by double digits, percentage-wise in many, many cases. So thank 
you for everything you have done. Thank you, Madam Chair.
    Ms. Minter. Madam Chair, if I might add, at the same point, 
we learned a lot of lessons during the disaster. And one of 
them is really about everyone working together. I would say 
that our relationship is very strong. But we are looking at 
innovations in how we permit projects. So I think the sweet 
spot is not to reduce the standards, but to improve the process 
to get there. It is amazing what can happen in a crisis. When 
we had our regulatory agencies with us onsite, we were able to 
move very expeditiously and meet the standards. So I think that 
might be the goal.
    Senator Fischer. I think, if I may respond, Madam Chair, I 
think that is a great suggestion. Because when we do see 
disasters happen, this is a time when we come together, when we 
are able to get these projects done. And sometimes the 
regulations aren't as strict as they are in a normal process. I 
think we need to look at what truly is required during the 
construction period in order to make sure wise decisions are 
made. But if they can be waived in case of an emergency, why 
can't they be waived in the normal everyday process of trying 
to build our infrastructure and create jobs in this country?
    Thank you very much. Thank you, Madam Chair.
    Senator Boxer. I would say this, having gone through some 
of these rebuilds after earthquakes and so on, we never waive 
quality. You can't waive quality. I was thinking, Mr. Willox, 
when you spoke about the yellow lines and talking to my staff, 
there are categorical exclusions. And Senator Fischer, you and 
I can work on making them work better.
    But sometimes there are certain rules that you want to make 
sure that the paint, for example, is the right quality. You 
want to make sure that the people who work on it are treated 
fairly. There is an argument about this. What I am saying, and 
I don't speak for everybody, but my view is, has always been, 
that when we are responsible for the money, you have to have 
some standards. I despise wasted time. Because it absolutely is 
wasted money.
    In the last MAP-21, we definitely moved forward on speeding 
things up. We actually went to a point where we said that the 
Federal workers and bureaucracy who were responsible for 
holding things up would really feel a pinch in their budgets. 
We really did a lot.
    But again, it is a question we all have to decide for 
ourselves. I know that if I were saying, move forward, go ahead 
but don't meet the safety requirements, I would not feel good 
about it. And when we did do what Senator Fischer described, we 
moved together. I remember. Because Pete Wilson was the 
Governor at the time. And I was in Federal office. We all 
worked together. She is right, we were all together in saying, 
we have to rebuild. But we never, ever said, waive the safety 
standards, waive the way you treat your employees.
    But the fact is, if we can do this in an emergency, she is 
absolutely right, we should be able to do it every single day. 
Unless there is some unexpected issue. That goes for all of 
your projects. We should be able to get you timely responses 
and move forward with the plans that work.
    Senator Cardin.
    Senator Cardin. Once again, Madam Chair, thank you very 
much. I appreciate the exchange you had with Mayor Ballard and 
the kind comments that were expressed. Thank you for that.
    Mayor Ballard, I thought you made a very good point in your 
testimony about the fact that the interstate program recognized 
the reality that Americans wanted to travel out to suburbia and 
that our transportation infrastructure should accommodate the 
needs of our Nation. Today the reverse is true, as you point 
out in your testimony. People are coming back into our urban 
centers. And that is wonderful. Smart growth was a major 
initiative in Maryland under Governor Glendening. People 
recognize that we have to do a better job of accommodating what 
people want today, and that is to live in our urban centers.
    Therefore, our transportation programs need to be sensitive 
to that. That is what Senator Cochran and I have tried to do 
with Senator Boxer's help. We marvel at the way in which you 
have given us concrete examples as to how that has worked in 
practice. We have talked about livable communities but it is 
also a matter of using these funds for safety issues, where you 
can use these funds to deal with realities of a dangerous 
situation in your community that can help you alleviate that, 
saving lives and helping people.
    So I just really wanted to underscore that point about how 
we need to make sure the highway system, the transportation 
system, surface transportation, accommodates local input.
    I served 20 years in the State legislature. And I know the 
relationship, in my State, between my State and the counties, 
and it is a good relationship. But at times it is tested when 
it comes to the use of transportation funds, that the main 
decisionmaker is the State. That is how the system is set up. 
The State has the largest single say in how the transportation 
funds are allocated, including the Federal transportation 
partnerships.
    So I would just like to get views, if you care to share 
them with us, as to how the MAP-21 is working and the 
relationship that you have between the State and the locals and 
whether the transportation programs need further adjustment or 
whether you are satisfied by the way in which that partnership, 
coming from the Federal Government, is working between the 
State and the localities.
    Mayor Ballard. Senator, thanks for those comments. I am one 
of three mayors on the National Freight Advisory Committee that 
is devising the national freight plan. I am very honored to do 
that for the Secretary of Transportation. But I am also a 
mayor, and I have to advocate for cities, obviously, not only 
my city but across the Nation.
    I do think it is important that as much money--Indiana is a 
little bit of a different State maybe than most. It is very 
rural, with one large region, about 1.8, 1.9 million, several 
medium size cities. So a lot of money that goes to the State 
necessarily goes to the highways. On a percentage basis, we 
probably don't get our fair share of the core highway funding 
that comes in, not even close.
    But would I like to see that adjusted a little bit? I 
probably would, but not to the detriment of the entire State. I 
do think the cities do a good job of investing. And the 
RebuildIndy fund that we put about a half a billion dollars out 
there, has been instrumental in putting people to work. The 
money that you are talking about, transportation alternative 
money, the Cultural Trail has spurred investment that is 
unbelievable in the city of Indianapolis. Just yesterday, 
Cummins Engines announced that they are moving offices downtown 
Indianapolis to be next to the Cultural Trail, 400 jobs, a 
Fortune 500 company. We are building all around this trail and 
other trails because of this money that has come to us 
directly, either to the MPO or to the cities.
    Senator Cardin. It is interesting, the Transportation 
Alternative Program, there are those who say you don't need it 
because the States could do this anyway, they could allocate 
the funds. We don't find happens. It is such a challenge to be 
able to fund all the priorities they have at the State level 
that there is really virtually nothing left over for these 
types of projects, if we didn't have this specific program.
    Mayor Ballard. We take pride in being the capital city and 
throwing off money to the rest of the State. To be frank, we 
don't get everything back from the State tax revenue that we 
contribute to. We have to donate some of that to the rest of 
the State. We are proud to do that, that is fine.
    But if you don't invest in the city directly and have money 
directly coming into the city, then we cannot continue that 
growth in our tax base. That is really what we are worried 
about. We are always worried about increasing the property tax 
base and the income tax base in the city so that we can be that 
vibrant capital city for the entire State. So the money that 
you are talking about, Senator, and that you have been so 
helpful on, has been absolutely critical to the growth of our 
city and as a consequence, to the growth of our State.
    Senator Cardin. Madam Chair, let me must make one other 
note about Mayor Cornett. I know he gave a TED talk, how an 
obese town lost a million pounds. So perhaps our transportation 
program can help our health care costs in this country also, as 
another additional benefit of some of these local initiatives.
    Mayor Cornett. We always want people to be more pedestrian 
friendly and more health conscious, that is right, Senator.
    Senator Cardin. Thank you.
    Senator Boxer. Well, that is very good, because we always 
have a battle with that alternative transportation section. I 
am going to quote both of you Republican mayors who were so 
eloquent on the point. It means a lot to us, really, because we 
do want to have a good bill that answers everybody's needs. Not 
everybody feels the same way, so we just need to make sure it 
is a fair bill.
    Senator Barrasso, we are very happy you came back. The 
floor is yours.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Mr. Willox, I was just going over your testimony again. I 
heard you, as you said about pulling out the specific line 
beyond the critical need for Federal financial resources, the 
success or failure of Federal highway programs in Wyoming can 
be reasonably predicted based on one question: does the program 
provide enough flexibility. You highlighted the word 
flexibility at the local level, to meet the unique needs of 
Wyoming's climate, terrain and rural nature. I think you heard 
the same thing from Senator Fischer from Nebraska, very similar 
concerns.
    Just like any Federal Government program, there are always 
strings attached in terms of Federal money when the State and 
local governments decide to accept that Federal funding. More 
often than not, the Federal programs offer a one size fits all 
approach of how the money is going to be spent. You gave an 
example of a bridge, I think it was in Platt County, that needs 
repair, and it would cost about $130,000, but it will end up 
costing a million because the county has to accept the level of 
engineering, bidding, environmental and construction 
requirements, as you said, that pushes the price tag 10 times 
higher.
    From your experience, can you share with the committee some 
other examples, perhaps, of local projects, where local and 
State flexibility outweighed the benefits of the Federal 
funding? Are there others?
    Mr. Willox. Thank you, Senator Barrasso. The challenge 
always is just what hoops do you have to jump through and do 
you have the time, money, and what is the end result. As a 
steward of taxpayer money at the local level, we want to spend 
those dollars wisely. That was Platt County's point. We can 
participate in the program and build the bridge, but why waste 
hundreds of thousands of dollars for a bridge that isn't 
necessary? We had one recently where we had to replace a river 
bridge, a major bridge in our area. We were going to 
participate in the BROS program, the Bridge Replacement Off-
System. But because of the standards that were required, we may 
have had to look at a two-lane bridge for a location that had 
average daily traffic of under 25. We didn't need a two-lane 
bridge. But the BROS standards and some of those things would 
have required a much more robust bridge than is necessary.
    There has been a little bit more flexibility created, and 
we are going in the right direction. But we decided to fund 
entirely with local funds this bridge for $1.2 million that 
probably would have been a $2 million bridge if we had 
participated in the program.
    Now, the county would have spent less money because the 
BROS program is a 90-10 program, and we would have spent less. 
But it wasn't a wise investment of tax dollars.
    Senator Barrasso. And you take a look at Converse County 
and the increased energy production that is going on, Converse 
County essentially is experiencing a boom in terms of oil and 
gas, uranium production as well. The increase in manpower and 
equipment is putting a stress on the highway system, especially 
at the local level, the county level. From the local 
perspective, I would like you to share with the committee how 
Converse County is dealing with the increased energy production 
on the roads and bridges.
    Mr. Willox. That is significant, Senator. These are heavy 
vehicles. We have traditionally rural roads that are now having 
energy production on them. So we are getting heavy vehicles out 
there.
    We have done several public-private partnerships that we 
have worked with the energy companies and others. Not the 
traditional ones you guys think of here, but we will let you 
work on our road, go ahead, and they have done that. We have 
also had to deal with planning because revenues always trail 
the impact. The same thing with the Federal Government, without 
a long-term plan we can't get ahead of the curve. So we have 
worked hard to win partnership, we have tried to do patching 
where necessary and then have a long-term plan behind that. But 
sometimes you are spending double dollars.
    But what we have really tried to do is look as far forward 
as we can but without the assurance of the long-term Federal 
bill, we don't know how we fit in that picture.
    Senator Barrasso. And we do have a short construction 
season in Wyoming. It generally starts in May, ends in October, 
if the weather cooperates. Unlike many warm construction season 
States, we don't have the opportunity for year-round 
construction. Due to cold weather climate, what can this 
committee do to improve the highway bill to reflected short 
construction seasons and then optimize Federal highway 
spending?
    Mr. Willox. And it goes back to my original statement about 
flexibility, and let the government at the lowest level make 
those decisions. If you can't get to this place until April 1st 
to do your engineering study, and you have 6 weeks of review 
through any part of the environmental process, by the time you 
have gone to bid, awarded the bid and started construction, you 
could be at September 1st because you couldn't start the 
process.
    I think it is also key to note, Senator, that all of these 
Federal programs, we have skin in the game. They are generally 
match programs. So when we talk about stewardship of the 
dollars that Senator Boxer referred to, I think it is important 
that we have skin in the game and we want accountability and we 
are held accountable at that level just as you are at this 
level. So I want to make sure that all tax dollars are spent 
wisely whether they are locally generated or funneled through 
the Federal and State system.
    Senator Barrasso. Thank you so much for your testimony. 
Thank you very much, Madam Chair.
    Senator Boxer. I really am fascinated with the one-lane 
bridge. Seriously. Because I guess I don't think I have been on 
a one-lane bridge. We have a lot of rural areas. So I guess I 
just need to ask you a question. What if more population comes 
to that area? Don't you think it would make some sense to build 
a two-lane bridge, and maybe the Federal Government feels that 
way before they invest money in it? Because it could be 
obsolete. It is such a gorgeous State, you never know, in 10, 
20, 30, 40 years, and these bridges last forever. So do you 
think it is that unreasonable? Talk to me. Tell me the truth.
    Mr. Willox. And let me extend an invitation to come and 
visit these wonderful one-lane bridges. It would be an 
experience.
    Senator Boxer. If I came over with you, I could hurt you 
politically.
    [Laughter.]
    Senator Boxer. And Lord knows what it would do to me.
    [Laughter.]
    Senator Boxer. But I will consider it, notwithstanding.
    Mr. Willox. We could do a low-key tour, if you would like, 
under the radar, if you would prefer. Tour some coal mines, it 
would be terrific.
    [Laughter.]
    Mr. Willox. It is a good question.
    Senator Boxer. It would kick up my asthma.
    Mr. Willox. Absolutely, it would not.
    Senator Boxer. I am teasing. I don't have asthma.
    Mr. Willox. We asked that same question, because it is a 
legitimate question, what is the potential for this area. We 
know locally what that potential is. There are 25 vehicles a 
day, that was the highest traffic this bridge has ever seen, 
and it is local traffic.
    Senator Boxer. They all go in one direction at the same 
time?
    Mr. Willox. In rural Wyoming, you stop and pull over to the 
side of the road all the time for vehicles coming toward you. 
That is a way of life, it is a culture. So to spend the kind of 
money for a two-lane bridge would have been viewed, at our 
level, as a waste of money. It was a one-land bridge that 
burned down, it was actually an old wooden bridge. It burned 
down, we replaced it with a steel one that has the weight 
capacity for emergency vehicles, a fully loaded fire truck can 
cross that bridge and provide emergency services.
    But it is 300 feet. I can tell if there is a truck on the 
other side. So I would say in this case, we knew best that 
there was no--in the next 20 to 30 years, with the alternate 
routes and this bridge, there was no need to spend the extra 
dollars.
    Senator Boxer. Good point. Well taken.
    Senator Carper.
    Senator Carper. Again, my thanks. This is a fascinating 
hearing, wonderful witnesses. We thank you all for the 
perspectives that you are bringing to us from places large and 
small.
    I want to ask a question or two of Dave Gula. Dave, thanks 
so much for the work you do and for joining us today. When we 
passed MAP-21, we included in it a number of reforms to 
transportation programs to focus on things like safety, like 
congestion mitigation, like state of good repair, air quality. 
Unfortunately, we didn't make much progress on the issue of 
freight and goods movements. As you know, we have a lot of 
freight that moves in and out of the northeast corridor, a bit 
of that moves through our State on rail and even by ship.
    If we were to take another look at the Federal freight 
policy, what advice would you give us for how to plan our 
investments and develop projects?
    Mr. Gula. Since we approach planning from a regional 
perspective, in our area we have to, we look at rail, we have 
the northeast corridor passing through our region. But we have 
a number of spur lines, and most of them come from one 
location. So we have freight coming in primarily from Cecil 
County, Maryland, to the northeast corridor, passing through 
Maryland, coming down into Delaware, hitting the whole DelMarVa 
peninsula, where it spreads back and forth through States. So 
our rail networks are intertwined with our sister States.
    I think a regional approach is one way to look at this. 
Again, when we talk about the northeast corridor, the 
flexibility of funding that is not tied to State lines is going 
to be important. Because there are projects that are good for a 
number of States that it is hard for everyone to contribute to 
if it is in one State. One of the things we have seen is, if we 
could potentially spread the local funding, the STP funds 
around, some of the projects that are waiting on funding along 
the northeast corridor that technically are Amtrak projects, 
but the local States could then contribute a little bit more 
and get those projects moving and they wouldn't sit waiting for 
a large Federal grant that may never come.
    Senator Carper. All right. I would just say, Madam Chair, 
to our witnesses, if you took a compass, and you put the point 
of it the Wilmington Train Station, on my office in Wilmington, 
our Congressman's office, he is right there at the point, we 
are a 50-mile circle around that point. And you cover parts of 
Maryland, parts of Pennsylvania, parts of New Jersey. And you 
have a hugely busy northeast corridor by the I-95. Passenger 
rail, freight rail, with Norfolk Southern, CSX. There is a lot 
going on for a little State.
    I was pleased to hear what you said about providing some 
flexibility through the Surface Transportation Program not to 
require that State and local governments use moneys in that 
program for interstate passenger rail but to give them the 
flexibility if they chose to do that.
    Question if I could for Mayor Ballard. We used to have a 
great former mayor of Indianapolis, as you know, who served 
here in the U.S. Senate with great distinction for a number of 
years. And I think we had another mayor there who has gone on 
to become your Governor. Was Mitch ever your mayor?
    Mayor Ballard. Senator, no, he was not.
    Senator Carper. I think he wanted to be.
    [Laughter.]
    Mayor Ballard. He did well as Governor.
    Senator Carper. I think mayor is a great job. Especially 
when the economy is getting better, as it is. But you have done 
some really good things, and frankly, both you and our friend 
from Oklahoma, we welcome you especially. You have done a lot 
of work to turn Indianapolis into a truly multi-modal city with 
good roads, good mass transit, bike paths, sidewalks and good 
passenger rail. I have always thought of a regional 
transportation network that offered people lots of different 
travel options, some of which involve physical activity and the 
chance to get out and walk or run or ride a bike.
    Can you tell us a little bit today why you supported such a 
range of transportation options? You mentioned this already but 
I wanted you to come back and do it again, and how the Federal 
program that we are talking about here could better support 
those efforts?
    Mayor Ballard. Thank you, Senator, I would be glad to 
answer that. I appreciate the kudos to Senator Lugar, whom I 
respect quite a bit obviously. We are trying to create the kind 
of city that people want to live in. The young people, young 
professionals, the young families are looking for a certain 
type of city. The multi-modal, the multi-transportation options 
are so critical. When I became the mayor of Indianapolis----
    Senator Carper. How long have you been there?
    Mayor Ballard. I am in my seventh year. We had one mile of 
bike lanes and one of my running jokes was, what does one mile 
of bike lanes connect to? I have no idea. But now we have 82 
miles of bike lanes and we have additional trails because of 
transportation alternative money, which really helped on the 
Pennsy Trail, which now connects to the Cultural Trail. That 
was the latest example. Now people can start riding and walking 
around the city in the way that they want to. They want to go 
outside their door, and as I say, they want to live local, shop 
local, eat local and do things around them. The sports 
facilities, the entertainment options, they want them close by 
and they want to be able to get to them in multiple ways.
    We believe that attracts talent to the city. We believe 
that attracts the kind of people, and the kind of attention 
that we are starting to get nationally and internationally, I 
think that is pretty obvious. Just yesterday, Cummins, every 
multi-national company is in the search for talent, and they 
want to be in a city that can do that internationally. The 
Cultural Trail has gotten a lot of attention. They are putting 
their new office space right on it. We just got a 28-story 
multi-use building, primarily residential, but it is going to 
be multi-use, right on it.
    That is very important to us, because the transportation 
alternative money gives us the opportunity to go multi-modal, 
give these young people options on ways to move. And frankly, 
the senior citizens use them quite a bit also. We have a lot 
more bicycles in the city now, we have a lot more people 
walking on the trails, we have a lot healthier climate now. It 
is not where we all want it to be but it is a lot healthier 
than it used to be.
    So it has been very important to us to have the money flow 
down in a particular way to us, so we can build the kind of 
city that attracts that sort of talent. That is why we are 
doing that.
    Senator Carper. Ms. Minter.
    Ms. Minter. Just to add, I wanted to build on the urban 
situation.
    Senator Carper. You are from a big State, Vermont, right?
    Ms. Minter. Yes, big State, big rural State. But these 
programs are essential for our communities as well. We have a 
real focus on vital communities. Without the transportation 
alternative programs, small communities of a thousand or less 
seriously cannot afford this. So we have a very competitive 
program. We have a statewide policy of focusing on developing 
of our small villages and downtowns, and people are clamoring 
for bike paths, for more sidewalks. All of the economic benefit 
that comes from when you have a vital community, it is not just 
our large urban centers, it is our rural States as well, that 
are dependent on these important funds. So thank you.
    Senator Carper. Madam Chairman, I would just add that we 
are in a country where over half of the people in our country 
now are obese or on their way to being obese, the idea of 
having these different options, there is another benefit as 
well. We can think about how much more we spend for health care 
costs than other countries. Obesity is a big driver in that, 
diabetes is a big driver in that. There are a lot of benefits 
that inure from these initiatives. I commend you all, thank 
you.
    Senator Boxer. Let me just say this.
    Mr. Fontenot. May I add to that?
    Senator Boxer. Yes, please.
    Mr. Fontenot. Besides the obesity, with those projects, and 
if we set those thresholds to allow for quicker project 
delivery, it builds credibility in the government process. It 
also brings to us voters who will vote to help us raise 
revenues. Those people, as you can see, the cities are filled 
with those people who like cycling and sidewalks. They are soft 
projects, so let's bring them quickly so that we can bring that 
confidence and vote on our behalf for the bigger scene.
    Senator Boxer. I hear you. One of the reasons that I think 
Mayor Ballard cited the Cardin-Cochran language is because 
money goes directly to where you want to get it. That is one 
way. The other way is to use your idea of saying, if it is not 
a huge, significant project, give more flexibility, which we 
will look at.
    I want to ask, I know it is delicate to ask this question, 
I want you to know that this Transportation Alternative Program 
was one of the hardest things I have ever done in my life, to 
get it, to keep it. There was a huge problem here in getting it 
done. I am wondering, because we have made these reforms, 
because we now deliver the money where it should go, is there 
anyone on this panel that feels strongly that we should get rid 
of that program? Is there anyone on the panel? That is 
important for me to know.
    I want to say that, Mayor Ballard, if it is possible, 
because you are such an eloquent voice for this Alternative 
Transportation Program, if there is a way for you to get a few 
mayors on a letter, as many as possible, to me and to Senator 
Vitter, and I know you have just a few here who I think would 
sign it, it would mean a lot. Frankly, I don't want to see this 
thing go into another meltdown, is this going to ruin the whole 
bill and the rest of it. So if you could help us with that, it 
would be hugely important.
    I will tell you this, and I know there are some people in 
the audience who are going to be advising, AASHTO, and others, 
on it. Just know, this is a must-have for a lot of us here. We 
want to make sure it happens.
    I also wanted to make sure, Mr. Willox, that you know, I 
think you do, that we did take many steps to streamline MAP-21 
in the last bill. I have them all listed, I won't go into all 
of them. But one of them is sort of interesting. We expanded to 
all States the previously enacted pilot program allowing States 
to assume the responsibilities of the Secretary of 
Transportation under the environmental review process. So in my 
State, there is no Federal environmental review process, it is 
done by our State. Our State does it and then shows it to the 
Feds. It is an equivalent process.
    I just think it is something you might want to look at. 
Because you could do it and as long as it is done well, it 
should be OK.
    So let me say to all of you, this has been so important. We 
have already heard from the very large States. One more thing I 
wanted to say, the large States are very happy with the TIFIA 
program. You didn't talk about the TIFIA program I assume 
because it is more important to the larger cities and the 
larger States.
    But would you be supportive if we looked at a TIFIA program 
that was expanded to make it easier for rural and small 
communities to get the grants for TIFIA? If you don't know what 
TIFIA is, it is the Transportation Infrastructure Finance 
program, that if you, for example, Mr. Fontenot, if you pass a 
local measure, and it is money that is coming in over 20 years, 
we can come up front, give you that check right now and then 
you just pay us back over that 20 years.
    So let me just say this, is there interest? Raise your hand 
if you would be interested in working with us toward making 
that program, adding a component to that program that helps the 
smaller cities and towns? I see everybody said yes. So we will 
work with you on that.
    But I also wanted to say, Mr. Gula was the one who pointed 
out in his original testimony how important exactly what you 
said, that people want to be able to walk, they want to be able 
to ride, they want to be able to keep these cities, they want 
to keep the young families, because that is what they are 
looking for. In the old, old days in California, people said, I 
want to go live on a mountaintop and seriously, and raise my 
kids up there in the hills. And we have beautiful areas. The 
trouble with that, they found out years later, is the kids 
really wanted to be a little lower down so they could walk to 
the store and walk to school, didn't have to count on Mom and 
Dad for everything.
    So I think Mr. Gula and both of our mayors have made the 
point, and our Louisiana and Vermont people, everybody made the 
point, that this is a lifestyle that is now developing out into 
the future, where we need to bring all this together. I just 
want to say how thrilled I am with this panel. I don't have a 
Californian on here, but I got to tell you, you spoke for a lot 
of my smaller cities and towns.
    Did you want to add something before we dismiss?
    Senator Carper. I am Tom Carper, and I approve this 
message.
    [Laughter.]
    Senator Boxer. Very cute. It is good to have a wingman that 
trusts you so much.
    Well, this has been terrific. We stand adjourned. In April, 
we are marking up the bill and I hope you will be happy with 
it. Thank you. We stand adjourned.
    [Whereupon, at 12 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
